      September 29, 2006




Acquisition
Program Management of the
Objective Individual Combat Weapon
Increment I
(D-2006-123)




This special version of the report has been revised to omit attorney client privilege,
predecisional, and source selection sensitive data.




                        Department of Defense
                       Office of Inspector General
   Quality                           Integrity                   Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronym
OICW                  Objective Individual Combat Weapon
                 Department of Defense Office of Inspector General
Report No. D-2006-123                                                       September 29, 2006
    (Project No. D2006-D000AE-0154.000)

               Program Management of the Objective Individual
                      Combat Weapon Increment I (U)

                                 Executive Summary (U)
(U) Why You Should Read This Report. This report discusses fundamental internal
control issues that a program should address as it progresses through the acquisition
process.
(U) Background. The Objective Individual Combat Weapon (OICW) is a dual
engagement weapon: its primary subsystem fires a 25-millimeter air bursting munition,
and its secondary subsystem fires the standard 5.56-milimeter munition. This report is
the third in a series of reports on the overall management of the OICW Program. This
report addresses requirements and systems engineering processes, contracting procedures,
and milestone decision authority for the XM8 Program, which later became OICW
Increment I. The first report addressed an internal control weakness associated with
preparing OICW Increment I for entry into the system development and demonstration
phase of the acquisition process. The second report addressed the Army’s completion of
the requirements process for OICW Increments II and III.
(U) Results. The XM8 Program, which later became OICW Increment I, had
fundamental internal control weaknesses. The OICW Program Office awarded contracts
for the XM8 before having an approved warfighter requirement, and it did not obtain
appropriate milestone decision approval before initiating the acquisition. The following
three findings discuss those internal control issues.
    • The OICW Program Office continued to develop the OICW Increment I even
        though the Joint Requirements Oversight Council had not approved warfighter
        requirements for Increment I. As a result, the OICW Program Office had no
        assurance that Increment I would satisfy warfighter requirements. Further,
        development of Increment I through the systems engineering process was
        adversely affected because the OICW Program Office did not have approved
        warfighter requirements to evolve into XM8 specifications and contract
        specifications to create an operationally effective and suitable system. During the
        audit, the Army withdrew $10 million in FY 2006 research, development, test,
        and evaluation funds and Congress removed $32.3 million in FY 2007
        procurement funds from OICW Increment I. In addition, the Army plans to
        transfer the remaining $547 million in FY 2008 through FY 2011 procurement
        funds to other small arms programs. Before committing or obligating any future
        resources to OICW Increment I, the Army Acquisition Executive needs to have a
        capability development document approved by the Joint Requirements Oversight
        Council (finding A).
    • The Picatinny Center for Contracting and Commerce, U.S. Army TACOM Life
        Cycle Management Command* did not comply with Federal and DoD contracting
        requirements before awarding contract modifications to the overall OICW
        contract and a separate contract to accelerate the acquisition of the XM8. By not
        complying with contracting requirements, the Picatinny Center for Contracting
        and Commerce did not ensure that the contract modifications were competed, as

*
 Referred to in previous DoD Inspector General reports as the Tank-automotive and Armaments Command.
        required. Further, the Picatinny Center for Contracting and Commerce awarded
        those contracting actions before obtaining the required justification in the form of
        an approved operational need statement for the XM8. The Picatinny Center for
        Contracting and Commerce needs to require its contracting officers to verify that
        contract modifications are within the scope of the contract statement of work
        before issuing contract modifications and within applicable requirements
        documents before awarding contracts. Further, the Picatinny Center for
        Contracting and Commerce needs to obtain a properly approved user-justification
        to support an urgent contracting requirement (finding B).
    • The then-Program Executive Officer Soldier, without evident authority, issued an
        acquisition decision memorandum on June 11, 2003, that started an acquisition
        program for the XM8 carbine and authorized entry of the program into the system
        development and demonstration phase of the acquisition process. Further, the
        Program Executive Officer Soldier started the XM8 Program 9 months after the
        OICW Program Office authorized the contractor to start work on the XM8.
        Consequently, the OICW Program Office inappropriately spent $33.3 million in
        research, development, test, and evaluation funds for the development of the XM8
        Program, which later became OICW Increment I. To preclude this condition from
        reoccurring, the Army Acquisition Executive needs to modify the format of the
        Army Acquisition Information Management Database. The database should
        clearly show that milestone decision authority information is supported by
        designation letters from the Army Acquisition Executive and that program
        executive officers have been delegated milestone decision authority before issuing
        program acquisition decision memorandums (finding C).
(U) The Army internal controls for the OICW Program need to be strengthened. DoD
Inspector General Report No. D-2006-004, “Acquisition of the Objective Individual
Combat Weapon,” October 7, 2005, addressed the material internal control weakness.
(U) Management Comments and Audit Response. We received comments from the
Deputy for Acquisition and Systems Management, responding for the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology); the Program Executive Officer
Soldier; and the Deputy Chief of Staff, U.S. Army TACOM Life Cycle Management
Command. The Deputy for Acquisition and Systems Management concurred with the
recommendation to have a capability development document approved by the Joint
Requirements Oversight Council before committing or obligating any future resources to
OICW Increment I and with the recommendation to modify the format of the Army
Acquisition Information Management Database. The Deputy Chief of Staff nonconcurred
with the recommendation to establish procedures that require contracting officers to
verify, before award, that contract modifications are within the scope of the contract
statement of work. However, he suggested corrective action that met the intent of the
recommendation. The Deputy Chief of Staff also nonconcurred with the recommendation
to obtain approved justification from the user to support an urgent requirement before
issuing a contract action to accelerate a contract award and the acquisition process. See
the Finding section of the report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.
(U) Army contracting officers need to obtain operational need statements from users, as
required, to verify that users have a validated urgent need to expedite a procurement
action. This action is essential for contracting officers to fulfill their responsibility to
safeguard the interest of the Army and to preclude the waste of taxpayer dollars.
Therefore, we request that the Deputy Chief of Staff, U.S. Army TACOM Life Cycle
Management Command reconsider his position on obtaining approved justification from
the user to support an urgent need before issuing a contract action. We request that the
Deputy Chief of Staff provide additional comments on the recommendation by
October 30, 2006.


                                             ii
Table of Contents

Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       5

Review of Internal Controls                                                      5

Findings
     A. Approval of Warfighter Requirements for OICW Increment I                 6
     B. Adherence to Contracting Requirements for the XM8                       11
     C. Designation of Milestone Decision Authority for the XM8                 19

Appendixes
     A. Scope and Methodology                                                   23
          Prior Coverage                                                        25
     B. Glossary                                                                26
     C. OICW Timeline of Events                                                 34
     D. OICW Increment I Alignment With Research, Development,
          Test, and Evaluation Acquisition Phases and Funding
          Requirements                                                          38
     E. Army Acquisition Information Management Database                        41
     F. Program Executive Officer Soldier Acquisition Decision
          Memorandum for the XM8 Carbine                                        43
     G. Assistant Secretary of the Army (Acquisition, Logistics, and
          Technology) Memorandum for Milestone Decision Authority
          Designation                                                           45
     H. Management Comments on the Overall Report and Findings and
          Audit Response                                                        47
     I. Report Distribution                                                     56

Management Comments
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   59
     Program Executive Office Soldier                                           61
     U.S. Army TACOM Life Cycle Management Command                              69
Background (U)
         (U) This report is the third in a series of reports on the overall management of the
         Objective Individual Combat Weapon (OICW) Increments I, II, and III. This
         report addresses requirements and systems engineering processes, contracting
         procedures, and milestone decision authority for the XM8 Program, which later
         became OICW Increment I. The OICW is a dual engagement weapon: its
         primary subsystem fires a 25-millimeter air bursting munition, and its secondary
         subsystem fires the standard 5.56-milimeter munition. The Army designed the
         OICW as a one-for-one replacement for selected M16 and M4 modular weapon
         systems in all rifle and anti-armor warfighter units. OICW Increment I is a kinetic
         energy family of small arms that include a carbine, special compact, designated
         marksman and a light machine gun. The Army designed the OICW Increment I as
         a one-for-one replacement for M16s, M4s, M249s, and select M9s throughout the
         U.S. Army. Appendix B is a glossary of technical terms used in this report.

         (U) Program Executive Office Soldier. The Program Executive Office Soldier
         is the materiel developer of the OICW Program. The Program Executive Office
         Soldier’s mission is to develop the best equipment and field it as quickly as
         possible so that soldiers remain second to none in missions that span the full
         spectrum of military operations. Reporting to the Program Executive Officer
         Soldier is the Project Manager Soldier Weapons who ensures that soldiers have
         needed weapons capabilities on present and future battlefields and maintains
         weapons’ readiness for the Army through intensive management of the full
         acquisition life cycle. Reporting to the Project Manager Soldier Weapons is the
         Product Manager Individual Weapons who maintains and improves existing
         individual weapons, such as rifles, carbines, pistols, and grenade launchers for the
         Army and other Military Departments.

         (U) OICW Mission Need Statement. In December 1993, the Assistant Deputy
         Chief of Staff of the Army for Operations and Plans, Force Development
         approved the OICW mission need statement. The mission need statement
         identified the requirement to engage primary targets, such as personnel protected
         with body armor or in improvised fortifications and tactical vehicles, and
         secondary targets, such as light armor and slow-moving aircraft. In a subsequent
         operational requirements document, the U.S. Army Infantry Center, which is the
         user representative, **********************************************
         *****************************************************************
         *******************************†**********************************
         *** *************************************************.

         (U) OICW Operational Requirements Document. In February 2000, the U.S.
         Army Training and Doctrine Command approved the OICW operational
         requirements document for the dual engagement weapon. In March 2000, the
         Army Acquisition Executive approved the OICW as a new acquisition program.
         ******************************************************************
         ******************************************************************


*Predecisional and source selection sensitive data omitted.


                                                     1
            ******************************************************************
            ******∗****************************************. In August 2000, the
            Picatinny Center for Contracting and Commerce, U.S. Army TACOM Life Cycle
            Management Command1 awarded a contract for the development of the OICW.

            (U) Change in Acquisition Strategy. In September 2001, when the OICW did
            not meet the threshold for the weight key performance parameter, **********
            ******************************************************************
            ********************************§*********************************
            *****************************************************************.
            On September 9, 2002, the Project Manager Soldier Weapons, as the materiel
            developer, issued a memorandum of urgent requirement for the development of
            the XM8 lightweight carbine. The memorandum of urgent requirement was based
            on the ongoing requirement of the Program Executive Office Soldier to lighten the
            weight of equipment carried by warfighters. On September 13, 2002, the Project
            Manager Soldier Weapons, citing the urgent requirement, had the OICW contract
            modified to develop the XM8.
            ****************************************
            ******************************************************************
            ******************************************************************
            ******************************************************************
            **************************************** 2

            (U) Incremental Evolutionary Development. In January 2003, the Program
            Executive Officer Soldier briefed the Army Acquisition Executive on a new
            approach for incrementally developing the OICW subsystems. The Program
            Executive Officer proposed maturing two separate but parallel capabilities: the
            kinetic energy system (XM8 [Increment I]) and the stand-alone, high explosive,
            air bursting system (XM25 [Increment II]). ******************************
            ******************************************************************
            *************************************************. In April 2003, the
            Picatinny Center for Contracting and Commerce issued a contract modification to
            the OICW contract that expanded the XM8 carbine to include four weapon
            variants, or a family of weapons.

            (U) **************************************************************
            *******************************************3***********************
            ******************************************************************
            ******************************************************************

∗
    Attorney-client privilege, predecisional and source selection sensitive data omitted.
1
    Referred to in previous DoD Inspector General reports as the Tank-automotive and Armaments
    Command.
2
    (U)
     **********************************************************************************
     ************************************************************************************
3
    (U) On April 1, 2005, the Army reorganized the Army Deputy Chief of Staff (G-3) into the Army
    Deputy Chief of Staff (G-3/5/7) responsible for operations, strategic plans and policy, force management,
    training, battle command, and capabilities integration. The reorganization was retroactively effective on
    November 16, 2004.



                                                         2
          (U)


                                        XM29 Integrated Airburst
                                           Weapon System
                                     (Original Operational Requirements
                                                 Document)




                                                                        XM25 Airburst Weapon System
        Carbine, Special Compact, Designated
         Marksman, and Light Machine Gun                                (Capability Development Document
           (Capability Development Document                                        Increment II)
                       Increment I)




                                      XM29 Integrated Airburst
                                         Weapon System
                                    (Capability Development Document
                                              Increment III)



            Source: Project Manager Soldier Weapons
            (U) Incremental Strategy for the Objective Individual Combat Weapon



            (U) ******************∗*******************************************
            *************************************************. In September
            2004, the Army Deputy Chief of Staff G-3 issued a memorandum, “Analysis
            Supporting Objective Individual Combat Weapon (OICW) Increment I Milestone
            (MS) B Decision,” to the U.S. Army Training and Doctrine Command, initiating
            the analysis of alternatives.

            (U) The OICW mission need statement and the February 2000 operational
            requirements document did not identify a need for a family of weapons. *
            ******************************************************************

∗
    Attorney-client privilege, predecisional, and source selection sensitive data omitted.


                                                         3
            *******************************∗**********************************
            ******************************************************************
            *****************************************. Subsequently, the Army
            withdrew the Increment I capability development document from the Joint
            Requirements Oversight Council approval process after it conducted a review of
            its small arms strategy, according to the Assistant Secretary of the Army
            (Acquisition, Logistics, and Technology).

                   (U) OICW Increment I. Increment I, designated by the Under Secretary
            of Defense for Acquisition, Technology, and Logistics as a pre-Major Defense
            Acquisition Program, is a family of small arms. Variants of the Increment I
            include a carbine, a special compact, a designated marksman, and a light machine
            gun (see figure on previous page). *************************
            ******************************************************************
            ******************************************************************
            ******************************************************************
            ******************************************************************
            ******************************************************************
            *************************************.

                     (U) OICW Increment II. Draft documentation for Increment II states
            that it will fire 25-mm high explosive, air bursting munitions that will allow the
            soldier to acquire a target, day or night, using optical and thermal systems with a
            laser range finder. **************************************
            ******************************************************************
            *************************************.

                  (U) OICW Increment III. ************************************
            ******************************************************************
            ******************************************************************
            ******************************************************************
            *************************************.

            (U) Overall Audit Project. This audit project is a continuation of work reported
            in DoD Inspector General Report No. D-2006-004, “Acquisition of the Objective
            Individual Combat Weapon,” October 7, 2005. That report addressed internal
            control weaknesses associated with the program documentation, acquisition
            category classification, and approval of the OICW Increment I capability
            development document before entry into the systems development and
            demonstration phase of the acquisition process. In response to that report, the
            Assistant Secretary of the Army (Acquisition, Logistics, and Technology) stated
            that the Army had cancelled a request for proposal for OICW Increment I and that
            the Army was reassessing its total small arms capability gaps and materiel
            requirements. A subsequent audit report, DoD Inspector General Report
            No. D-2006-087, “Acquisition of the Objective Individual Combat Weapon
            Increments II and III,” May 15, 2006, addressed the Army’s completion of the
            requirements process for OICW Increments II and III. Appendix C contains a
            detailed timeline of events for the OICW Program.

∗
    Attorney-client privilege, predecisional, and source selection sensitive data omitted.


                                                         4
Objectives (U)
     (U) The primary audit objectives were to determine whether management was
     effectively implementing the requirements and systems engineering processes,
     adequately applying contracting and funding procedures, and adhering to
     procedures for assigning milestone decision authority to an individual for the
     XM8 Program, which later became Increment I of the OICW Program. We also
     evaluated the internal control program as it related to the audit objective. See
     Appendix A for a discussion of the scope and methodology and prior coverage
     related to the audit objectives.

Review of Internal Controls (U)
     (U) OICW Increment I Internal Control Weakness. We identified a material
     weakness in the application of internal controls associated with the XM8 Program,
     which later became Increment I of the OICW Program, as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. Although the internal controls outlined in the DoD 5000 series
     of guidance and Army Regulation 70-1, “Army Acquisition Policy,”
     December 31, 2003, were adequate for controlling the OICW acquisition, the
     Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
     Technology) did not follow them for the XM8 Program. Specifically, the OICW
     Program Office awarded contracts for the XM8 before having an approved
     warfighter requirement, and it did not obtain appropriate milestone decision
     approval before initiating the acquisition.

     (U) OICW Prior Coverage Internal Control Weaknesses. DoD Inspector
     General Report No. D-2006-004 and DoD Inspector General Report
     No. D-2006-087 also addressed internal control weaknesses associated with
     following the DoD 5000 series of guidance and Army Regulation 70-1. The first
     report addressed an internal control weakness associated with preparing OICW
     Increment I for entry into the system development and demonstration phase of the
     acquisition process. The second report addressed the Army’s completion of the
     requirements process for OICW Increments II and III.

     (U) Assessment of Program Executive Office Soldier’s Internal Controls.
     DoD Inspector General Report No. D-2006-004 stated that, because of the internal
     control weakness, we would assess Program Executive Office Soldier’s internal
     controls for identifying the acquisition category of acquisition programs under
     Project No. D2005-D000AE-0224.000, “Audit of Army Acquisition Executive’s
     Management Oversight and Procurement Authority for Acquisition Category I and
     II Programs.” On that project, the auditors reviewed 21 Acquisition Category I
     and II programs, one of which was under the management oversight of the
     Program Executive Officer Soldier, to determine whether those programs were
     adequately managed by the milestone decision authority and the procurement
     authority. The auditors on that project did not review the OICW Program because
     of the prior and ongoing audit coverage.




                                         5
           A. Approval of Warfighter Requirements
              for OICW Increment I (U)
           (U) The OICW Program Office continued to develop the OICW
           Increment I even though the Joint Requirements Oversight Council had
           not approved warfighter requirements for Increment I. This condition
           occurred because the OICW Program Office authorized the contractor to
           develop the XM8 using the requirement for a separable kinetic energy
           subsystem identified in the February 2000 operational requirements
           document for the original OICW. The OICW Program Office should have
           obtained an approved capability development document for the XM8 from
           the Joint Requirements Oversight Council as required before awarding
           contracts and contract modifications. By not completing the requirements
           process for the XM8 Program, which later became OICW Increment I, the
           OICW Program Office had no assurance that the XM8 would satisfy
           warfighter requirements. Further, the XM8 systems engineering process
           was adversely affected because the OICW Program Office did not have
           approved warfighter requirements to evolve into XM8 specifications and
           contract specifications to create an operationally effective and suitable
           system.

Evolutionary Acquisition and Capability Documentation
  Guidance (U)
    (U) DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003;
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
    2003; and Chairman of the Joint Chiefs of Staff Instruction 3170.01E, “Joint
    Capabilities Integration and Development System,” May 11, 2005, provide
    guidance on evolutionary acquisition and capability documentation.

           (U) DoD Directive. DoD Directive 5000.1 requires the Chairman of the
    Joint Chiefs of Staff to provide advice and assessment on military capability needs
    through validated and approved capabilities documents. Further, the directive
    requires acquisition programs to be managed through a systems engineering
    approach that optimizes total system performance and minimizes total ownership
    costs.

            (U) DoD Instruction. DoD Instruction 5000.2 requires each increment in
    an evolutionary acquisition program to begin with a system development and
    demonstration decision followed by a production and deployment decision. The
    instruction identifies documents that support the system development and
    demonstration decision review, such as the capability development document.
    The chart in Appendix D depicts the acquisition documentation necessary to
    support a system development and demonstration decision review. In addition,
    the appendix identifies the acquisition documentation that the OICW Program
    Office has completed for XM8 Program as of July 2006.




                                         6
                    (U) Joint Chiefs of Staff Instruction. Chairman of the Joint Chiefs of
            Staff Instruction 3170.01E states that the Under Secretary of Defense for
            Acquisition, Technology, and Logistics will advise on whether the applicable
            capability roadmaps are in place to achieve the desired objective. Further, the
            instruction states that the Joint Requirements Oversight Council is the final
            validation and approval authority for capability development documents for
            programs that have the potential for joint interest.

Approving Warfighter Requirements for Increment I (U)
            (U) DoD Inspector General Report No. D-2006-004, “Acquisition of the
            Objective Individual Combat Weapon,” October 7, 2005, discussed the Army’s
            development of OICW Increment I without a capability development document
            approved by the Joint Requirements Oversight Council. In response, the Assistant
            Secretary of the Army (Acquisition, Logistics, and Technology) stated that OICW
            Increment I had a capability development document that the Army Requirements
            Oversight Council approved in *****∗****. However, the Army Requirements
            Oversight Council approved the capability development document about 2 years
            after the Picatinny Center for Contracting and Commerce placed the XM8 on
            contract. Consequently, when developing the XM8 through the systems
            engineering process, which transitions a stated warfighter need to an operationally
            effective and suitable system, the OICW Program Office was unable to provide
            XM8 system requirements to the prime and subcontractor. Instead, the prime and
            subcontractor negotiated with the OICW Program Office to establish the system
            specifications for the XM8. Even after we issued Report No. D-2006-004, the
            OICW Program Office continued to work on OICW Increment I without having a
            capability development document approved by the Joint Requirements Oversight
            Council.

                    (U) Contract Modification. On March 16, 2005, the Picatinny Center
            for Contracting and Commerce awarded contract modification P00068 to contract
            DAAE30-00-C-1065. The modification required the prime contractor, Alliant
            Techsystems Integrated Defense Company, to design, build, and deliver
            two target-acquisition and fire-control system interfaces and a separate battery
            mount for the OICW Increment I and to further develop Increment II.4 The
            expiration date for the modification was March 31, 2006.

            (U) The Picatinny Center for Contracting and Commerce should not have
            included work on the XM8 in contract modification P00068 because the Assistant
            Secretary of the Army (Acquisition, Logistics, and Technology) directed the
            Program Executive Officer Soldier and the Project Manager Soldier Weapons to
            conduct a nondevelopmental item competition for OICW Increment I in January
            2005. On November 14, 2005, the Assistant Secretary of the Army (Acquisition,
            Logistics, and Technology) stated in response to DoD Inspector General Report
            No. D-2006-004 that a request for proposals for the nondevelopmental item
            competition for OICW Increment I was cancelled. A representative from the
∗
    Source selection sensitive data omitted.
4
    (U) Contract modification P00068 to contract DAAE30-00-C-1065 referred to the XM8 and XM25
    instead of OICW Increment I and II, respectively.

                                                  7
            OICW Program Office stated that the work for OICW Increment I in contract
            modification P00068 was for Future Force Warrior Program experiments. The
            representative also stated that the Future Force Warrior Program changed its
            requirement from using the OICW Increment I to using the M4 carbine before the
            Army spent any funds on the work. However, the OICW Program Office did not
            have contract documentation to support those statements.

                    (U) February 2000 Operational Requirements Document for the
            OICW. The Office of the Assistant Secretary of the Army (Acquisition,
            Logistics, and Technology) believed that the OICW Program Office had an
            approved requirement for the XM8 because the February 2000 operational
            requirements document for the original OICW identified a requirement for a
            separable kinetic energy subsystem. Although the February 2000 operational
            requirements document states that the OICW will be reconfigurable into a stand-
            alone kinetic energy subsystem, the subsystem was to be employed when the use
            of bursting munitions was impractical and was to function with the target-
            acquisition and fire-control system. However, the XM8 under contract was not
            required to be capable of recombining with the airbursting XM25 (Increment II) to
            form the XM29 (OICW Increment III). Also, the prime and subcontractor did not
            design the XM8 to function with the target-acquisition and fire-control system.
            Further,
            *********************************************************
            ********************************∗********************************.

                    (U) Capability Development Document for OICW Increment I. The
            “Capability Development Document (CDD) for Objective Individual Combat
            Weapon (OICW), Increment I, ACAT [Acquisition Category] II,” August 16,
            2004, ***********************************************************
            ******************************************************************
            *************************************************. Specifically, the
            kinetic energy subsystem will provide performance not less than that of the M4
            carbine firing the 5.56-mm ball cartridge. Further,***********************
            ********, as submitted to the Joint Capabilities Board for review, ************
            ******************************************************************
            *********. Consequently, ******************************************
            *****************************************************************.
            After the Army conducted a review of its small arms strategy in September and
            October 2005, it withdrew the OICW Increment I capability development
            document from the Joint Requirements Oversight Council approval process,
            according to the Assistant Secretary of the Army (Acquisition, Logistics, and
            Technology).

                   (U) Systems Engineering Process. ****************************
            ******************************************************************
            ********************. In addition, the XM8 Program did not have a Joint
            Requirements Oversight Council approved capability development document.
            Consequently, the OICW Program Office agreed to modify the specifications to
            accommodate the prime and the subcontractor’s changes to the specifications to
            produce the XM8. A representative from the OICW Program Office stated
∗
    Attorney-client privilege, predecisional, and source selection sensitive data omitted.


                                                         8
            that the systems engineering work for the XM8 was documented through
            three technical reviews held between November 2002 and July 2003.

                           (U) November 2002 System Requirements Review. During the
            November 13, 2002, system requirements review held for the XM8, the OICW
            Program Office informed the prime and the subcontractor that no specific weapon
            requirements existed for the system. Consequently, the OICW Program Office
            negotiated the specifications with the prime and the subcontractor.

                            (U) December 2002 Preliminary Design Review. During the
            XM8 preliminary design review held on December 4 and 5, 2002, the prime and
            the subcontractor requested clarification on 15 of the requirements negotiated for
            the XM8 system. In addition, the prime and subcontractor proposed system
            specifications for meeting some of those requirements. *********************
            ********************************∗*********************************
            accepted the prime and the subcontractor’s specifications for use in developing the
            weapon.
                            (U) July 2003 Critical Design Review. During the critical design
            review held on July 28 and 29, 2003, the prime contractor listed the compliance
            concerns it had with the XM8 family of four weapon variants. Instead of
            complying with the previously negotiated specifications for the system, the
            subcontractor recommended that the OICW Program Office change the
            specifications to meet what the subcontractor planned to produce. In response, the
            OICW Program Office agreed to modify the specifications to accommodate the
            prime and the subcontractor’s changes to the specifications.

Effects of Approving Warfighter Requirements for Increment I (U)

            (U) By not having an OICW Increment I capability development document that
            the Joint Requirements Oversight Council had approved, the OICW Program
            Office had no assurance that the XM8, which later became Increment I, would
            satisfy warfighter requirements. When, and if, the Joint Requirements Oversight
            Council approves a capability development document for the OICW Increment I,
            the OICW Program Office will likely incur additional costs to redesign the
            weapon to satisfy the warfighter requirements.
            (U) Army Comptroller Reduction of Funds. During the audit, the OICW
            Program Office informed us that it did not intend to use the remaining $10 million
            in FY 2006 research, development, test, and evaluation funds that were still
            committed to OICW Increment I. Subsequently, we met with a representative
            from the Office of the Assistant Secretary of the Army (Financial Management
            and Comptroller) about those funds. The Office of the Assistant Secretary of the
            Army (Financial Management and Comptroller) then withdrew the $10 million in
            FY 2006 research, development, test, and evaluation funds from OICW
            Increment I to put those funds to better use.
            (U) Congressional Reduction of Funds. Based on DoD Inspector General
            Report No. D2006-004, Congress removed $32.3 million in FY 2007 procurement
∗
    Predecisional and source selection sensitive data omitted.


                                                        9
    funds from OICW Increment I. Specifically, in the House of Representatives
    Committee on Armed Services Report 109-452, “National Defense Authorization
    Act for FY 2007,” May 5, 2006, the committee stated that they believed the
    budget request for the OICW Increment I was not justified and recommended a
    decrease of $32.3 million in FY 2007 procurement funds. The committee also
    recommended redistribution of those funds to other small arms programs as
    specified in the report based on urgent need and in support of the Army’s
    restructured small arms acquisition strategy.

    (U) Transfer of Remaining Procurement Funds. The House of
    Representatives Conference Report 109-359, December 18, 2005, requested that
    the Army provide a report detailing updated requirements, acquisition strategy,
    and schedule for OICW Increment I by January 29, 2006. On May 1, 2006, in
    response to the Conference Report, the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology) stated that the Army plans to transfer the
    remaining $547 million in FY 2008 through FY 2011 procurement funds from
    OICW Increment I to other small arms programs.

Management Comments on the Finding and Audit Response (U)
    (U) Summaries of management comments on the finding and audit responses are
    in Appendix H.

Recommendation and Management Comments (U)
    (U) A. We recommend that the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology) not commit or obligate any future
    resources to fund or support OICW Increment I as an acquisition program
    until it has a capability development document approved by the Joint
    Requirements Oversight Council.

    (U) Management Comments. The Deputy for Acquisition and Systems
    Management, responding for the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology), concurred with the recommendation. He stated that
    the Army withdrew the OICW Increment I requirement and shifted funds to other
    critical small arms needs as the result of a review and update of the Army Small
    Arms Strategy by the U.S. Army Training and Doctrine Command. Further, the
    Deputy stated that the Army will program the necessary funds to address
    requirements for a family of small arms after the U.S. Army Training and
    Doctrine Command completes an analysis of the family of small arms and
    provides supportable requirements documents to the Joint Requirements
    Oversight Council for approval. For the complete text of the Deputy’s comments,
    see the Management Comments section of this report.




                                        10
            B. Adherence to Contracting Requirements
               for the XM8 (U)
            (U) The Picatinny Center for Contracting and Commerce did not comply
            with Federal and DoD contracting requirements before awarding contract
            modifications to the overall OICW contract and a separate contract to
            accelerate the acquisition of the XM8. This condition occurred because
            the:
                   • Picatinny Center for Contracting and Commerce did not
                        establish procedures that required contracting officers to verify,
                        before award, that contract modifications were within the scope
                        of the contract statement of work and the approved
                        requirements document that supports the original contract; and

                    •   contracting officers at the Picatinny Center for Contracting and
                        Commerce did not obtain justification from the user to support
                        memorandums of urgent requirement that the then-Program
                        Executive Officer Soldier and the OICW Program Office
                        issued to accelerate the acquisition of the XM8.

            (U) By not complying with contracting requirements, the Picatinny Center
            for Contracting and Commerce did not ensure that the contract
            modifications were competed, as required. Further, the Picatinny Center
            for Contracting and Commerce awarded those contracting actions before
            obtaining the required justification in the form of an approved operational
            need statement for the XM8.

Contracting Policy (U)
     (U) The Federal Acquisition Regulation; the Defense Federal Acquisition
     Regulation Supplement; Army Regulation 71-9, “Materiel Requirements,”
     April 30, 1997; and the U.S. Army TACOM Procurement Procedure,
     “Undefinitized Contractual Actions (UCAs),” April 19, 2001, provide policy
     guidance concerning the contracting process applicable to the XM8.

             (U) Federal Acquisition Regulation. Federal Acquisition Regulation 6,
     “Competition Requirements,” requires full and open competition for a contract
     action unless it qualifies as an exception to full and open competition. In
     addition, Federal Acquisition Regulation 43.201(a), “General,” requires a change
     to be in the general scope of a contract for the change to be processed as a change
     order to that contract.

             (U) Defense Federal Acquisition Regulation Supplement. Defense
     Federal Acquisition Regulation Supplement 217.7401, “Authorization,” states that
     a contract action is an undertaking that results in a contract, which includes
     contract modifications for additional supplies or services. Further, it states that a
     contract action is neither a change order to a contract nor a contract modification
     if that modification is within the scope of the original contract.


                                          11
           (U) Army Regulation. Army Regulation 71-9 defines an operational
    need statement and explains the process for submittal and approval of the
    operational need statement.

           (U) U.S. Army TACOM Procurement Procedure. U.S. Army TACOM
    Procurement Procedure, “Undefinitized Contractual Actions (UCAs),” describes
    the process and contents of a statement of impact that supports the issuance of an
    undefinitized contractual action.

Contract Modifications and New Contract for the XM8 (U)
    (U) To accommodate work for the XM8, the Picatinny Center for Contracting
    and Commerce issued contract modifications to the overall OICW contract and
    awarded a separate contract for the XM8 family of weapons. Those contracting
    actions were not within the scope of the contract statement of work and February
    2000 operational requirements document for the OICW. Further, the Picatinny
    Center for Contracting and Commerce did not obtain justification from the user to
    support the memorandums of urgent requirement that the Program Executive
    Officer Soldier and the OICW Program Office issued to accelerate the acquisition
    of the XM8. The Deputy Project Manager Soldier Weapons, a Picatinny
    contracting officer, and a Picatinny legal counsel representative stated that a
    memorandum of urgent requirement was another name for a statement of impact.

            (U) Scope of Contract Modifications. On August 4, 2000, the Picatinny
    Center for Contracting and Commerce awarded contract DAAE30-00-C-1065 to
    Alliant Techsystems Integrated Defense Company, as the prime contractor. The
    contract award included Heckler and Koch as one of the subcontractors. The
    contract required Alliant Techsystems to provide ammunition for and systems
    integration of the OICW and Heckler and Koch to produce the kinetic energy and
    high explosive components of the OICW. The contract’s statement of work
    required the contractor to design the OICW to permit reconfiguration into a stand-
    alone, kinetic energy subsystem that uses a target-acquisition and fire-control
    system. The statement of work coincided with the requirements in the February
    2000 operational requirements document for the OICW. The OICW contract was
    funded under the OICW Program Element No. 0603802A.

    (U) The Picatinny Center for Contracting and Commerce issued two contract
    modifications, P00025 on September 13, 2002, and P00041 on April 23, 2003, as
    change orders to contract DAAE30-00-C-1065. Those contract modifications
    were also funded using the OICW Program Element No. 0603802A. The
    Picatinny Center for Contracting and Commerce should have issued those
    modifications as contract actions rather than change orders because those
    modifications were not within the scope of the statement of work or the February
    2000 operational requirements document.




                                        12
                (U) Contract Modification P00025. The statement of work for
P00025 required the XM8 to have maximum commonality with the XM29.
Specifically, the statement of work stated, in part, that:
       1.1 XM8 Requirements.
       The XM8 will be developed from the XM29 Integrated Airburst
       Weapon System to meet user requirements for a lightweight carbine.
       3.1.1 XM8 SD [System Demonstration] Performance
       Requirements.
       The contractor shall develop an XM8 Carbine that meets the system
       performance requirements. The performance requirements for the
       XM8 are contained in the M4 MWS [modular weapon system]
       Specification. High risk/critical technical performance requirements
       and their associated thresholds for the SD phase are contained in
       Appendix B to this Statement of Work.
       APPENDIX B-High Risk/Critical Performance Thresholds
       Preliminary
       Weight:
               Threshold – 6 lbs [pounds]
               Objective – 5 lbs
       Weapon system cost: $.6K [thousand] – Threshold

(U) The M4 modular weapon specification referenced in the statement of work
did not require the XM8 to operate using a target-acquisition and fire-control
system. The statement of work for contract DAAE30-00-C-1065 required the
contractor to design the OICW to permit reconfiguration into a stand-alone,
kinetic energy subsystem that uses a target-acquisition and fire-control system.
Further, the operational requirements document for the OICW required a target-
acquisition and fire-control system that functions with the OICW kinetic energy
subsystem in the stand-alone mode or when integrated with the airburst capability.
The modification was not within the scope of the original contract because the
stand-alone XM8 did not have the capability to function using a target-acquisition
and fire-control system.

              (U) Contract Modification P00041. The statement of work for
P00041 outlined the following requirements:
       2. Requirements.
       2.1 Four (4) weapon variants.
       2.2 These XM8 variants will be based on development efforts under
       the current baseline XM8 development program and built to
       demonstrate the characteristics of the XM8 to meet user requirements
       for a future combat rifle.
       2.3 Each prototype shall be capable of safely man-firing M855
       5.56mm [millimeter] ball ammunition in semi-auto and automatic fire
       modes.
       2.4 There shall be two hundred (200) XM8s produced. Each XM8
       shall be fitted with Multiple Attachment Points at the top of the
       receiver, as well as top, bottom, left, and right sides forward of the
       receiver. The weapon design will be such that it will allow the new
       Multi-Function Aiming sight to be integrated to the upper receiver.
       2.5 The XM8 will allow the mounting of a 40mm grenade launcher,
       the XM320, or Lightweight Shotgun System (LSS) below the 5.56mm
       barrel without the use of special tools. There shall also be a bayonet
       lug on each XM8.


                                        13
(U) Contract modification P00041 was not within the scope of the original
contract because:

       •   the XM8 family of weapons (four weapon variants) did not have the
           capability to function using a target-acquisition and fire-control
           system;
       •   the XM8 family of weapons was not required to maintain commonality
           with the XM29; and
       •   the original statement of work and the February 2000 operational
           requirements document did not require a multiconfigured weapon or a
           family of weapons as envisioned with the XM8.

Further, a representative from Alliant Techsystems agreed that the XM8 was not
within the scope of the statement of work for contract DAAE30-00-C-1065.

(U) The Picatinny Center for Contracting and Commerce should have treated
modifications P00025 and P00041 to contract DAAE30-00-C-1065 as contract
actions instead of change orders. By incorrectly identifying those contract actions
as change orders, the Picatinny Center for Contracting and Commerce
circumvented competition requirements for full and open competition of contract
actions. To ensure the proper use of contract actions, change orders, and full and
open competition of contract actions, the Picatinny Center for Contracting and
Commerce needs to establish procedures requiring contracting officers to verify
that contract modifications are within the scope of the applicable requirements
document and the original contract statement of work before issuing contract
modifications.

        (U) Support for Memorandums of Urgent Requirement. Defense
Federal Acquisition Regulation Supplement 217.7404-1, “Authorization,”
requires the head of the contracting activity to sign a request for approval
addressing the adverse impact on agency requirements before entering into an
undefinitized contract action. Further, the U.S. Army TACOM Procurement
Procedure states that the request for approval must include a statement of impact,
which explains the need to begin performance before definitization, including the
adverse impact on agency requirements resulting from delays in beginning
performance. Army Regulation 71-9 states that an operational need statement is
used to document the urgent need to correct a deficiency in the field. It requires
the user to prepare an operational need statement for an urgent need and requires
the Army Deputy Chief of Staff G-3/5/7 to be the approval authority for
operational need statements.

               (U) Memorandums of Urgent Requirement for Contract
Modifications P00025 and P00041. To initiate and accelerate the acquisition of
the XM8, the Picatinny Center for Contracting and Commerce issued contract
modifications P00025 and P00041. Although the Picatinny Center for
Contracting and Commerce considered those contract modifications to be change
orders instead of contract actions, it requested memorandums of urgent
requirement from the OICW Program Office to justify issuing the contract
modifications. In response, the Deputy Project Manager Soldier Weapons and the
Program Executive Officer Soldier issued memorandums of urgent requirement


                                    14
     for contract modifications P00025 and P00041, respectively. Contrary to the
     requirement in Army Regulation 71-9, the Picatinny Center for Contracting and
     Commerce did not require the user to submit the required justifications to support
     those memorandums of urgent requirement.

     (U) The memorandum of urgent requirement, signed by the Deputy Project
     Manager Soldier Weapons on September 9, 2002, for contract modification
     P00025, requested the acceleration of the XM8 Program to achieve low-rate initial
     production approval in one year to provide the warfighter a critical capability
     sooner than expected. The memorandum of urgent requirement, signed by the
     Program Executive Officer Soldier on March 12, 2003, for contract modification
     P00041, requested that the contracting office expedite the issuance of a contract
     modification for 200 near-final solution prototypes of the XM8 lightweight
     carbine. In both cases, the Army Deputy Chief of Staff G-3/5/7 had neither
     received nor approved an operational need statement from the user to support the
     acceleration of the XM8 Program.

                   (U) Heckler and Koch Memorandum of Urgent Requirement.
     On February 10, 2004, the Program Executive Officer Soldier signed a
     memorandum of urgent requirement to justify the letter contract for the tooling,
     design improvement, and fielding of the XM8 modular assault weapons (family of
     weapons). In response, on February 27, 2004, the Picatinny Center for
     Contracting and Commerce awarded a sole-source letter contract W15QKN-04-
     C-1074 to Heckler and Koch. The memorandum of urgent requirement stated that
     the Army Chief of Staff approved acceleration of the XM8 Program to supply
     two brigade combat teams with the XM8.

     (U) The Commanding General, Third Infantry Division (Mechanized) submitted
     an operational need statement, dated March 17, 2004, to the Army Deputy Chief
     of Staff G-3/5/7 for an integrated modular assault weapon system in the form of
     the XM8. The Commanding General submitted the operational need statement
     after the date of the memorandum of urgent requirement. In addition, the Office
     of the Army Deputy Chief of Staff G-3/5/7 did not validate or approve the
     operational need statement. Consequently, when the Program Executive Officer
     Soldier signed the memorandum of urgent requirement, the Army had neither an
     urgent user need nor an approved operational need statement for the XM8 as a
     materiel solution to the need for an integrated modular assault weapon system.
     Without an operational need statement approved by the Army Deputy Chief of
     Staff G-3/5/7, the Picatinny Center for Contracting and Commerce did not have
     valid justification for accelerating the XM8 acquisition.

Effects of Contract Modifications and a Contract for the XM8
  to Support Urgent Requirements (U)
     (U) By not complying with contracting requirements, the Picatinny Center for
     Contracting and Commerce did not ensure that the contract modifications were
     competed, as required. Further, without an approved operational need statement
     for the XM8, the Picatinny Center for Contracting and Commerce did not have
     valid justification to award the contract modifications to the overall OICW
     contract and the separate contract for the XM8.

                                         15
Management Comments on the Finding and Audit Response (U)
    (U) Summaries of management comments on the finding and audit responses are
    in Appendix H.

Recommendations, Management Comments, and Audit
  Response (U)
    (U) B. We recommend that the Executive for Contracting, Picatinny Center
    for Contracting and Commerce, U.S. Army TACOM Life Cycle Management
    Command:

           1. Establish procedures that require its contracting officers to verify,
    before award, that contract modifications are within the scope of the contract
    statement of work, as required in Federal Acquisition Regulation 43.2,
    “Change Orders.”

    (U) Management Comments. The Deputy Chief of Staff, U.S. Army TACOM
    Life Cycle Management Command nonconcurred with the recommendation. He
    stated that although his command nonconcurs with the recommendation, the
    Picatinny Center for Contracting and Commerce will formalize a standing
    operating procedure. The procedure will address the inclusion of a bona fide
    change determination memorandum for any modification that requires a change to
    the existing contract terms and conditions. For the complete text of the Deputy’s
    comments, see the Management Comments section of this report.

    (U) Audit Response. The comments from the Deputy Chief of Staff were
    responsive. Although the Deputy nonconcurred with the recommendation, the
    action taken by the Picatinny Center for Contracting and Commerce to formalize a
    standing operating procedure satisfied the intent of the recommendation.
    Therefore, no further comments are required.

           2. Obtain justification from the user, in the form of an operational
    need statement approved by the Army Deputy Chief of Staff G-3/5/7, to
    support an urgent requirement before issuing a contract action to initiate
    and accelerate a contract award and the acquisition process, as required in
    Army Regulation 71-9, “Materiel Requirements,” April 30, 1997.

    (U) Management Comments. The Deputy Chief of Staff, U.S. Army TACOM
    Life Cycle Management Command nonconcurred with the recommendation. He
    stated that Defense Federal Acquisition Regulation Supplement 217.7404-1,
    “Authorization,” delineates the contracting officer’s authority to enter into an
    undefinitized contract action. He provided specific guidance from that reference.
    In addition, the Deputy Chief of Staff stated that U.S. Army TACOM Delegation
    of Authority No. 04-02, “Authority to Issue Undefinitized Contractual Actions
    and Allow Use of a Letter Contract,” February 2, 2004, provides guidance
    concerning the delegation of authority. He also provided specific guidance from



                                        16
the delegation of authority. The Deputy Chief of Staff concluded that the reasons
for not concurring with the recommendation were that:

       •   no regulations exist requiring an operational need statement before
           awarding an undefinitized contract action;
       •   field commanders can use an operational need statement to request
           mission-essential items from any source, not just the acquisition
           community; and
       •   an undefinitized contract action can be issued for many purposes, not
           just for the acquisition of urgent materiel, and requiring an operational
           need statement for all undefinitized contract actions would
           inadvertently circumvent a customer’s program.

(U) Audit Response. The comments from the Deputy Chief of Staff were
nonresponsive. He disregarded the obligation of contracting officers to safeguard
the interests of the United States before issuing undefinitized contract actions.
Federal Acquisition Regulation 1.602-2, “Applicability,”, states that contracting
officers are responsible for:

       •   ensuring performance of all necessary actions for effective contracting,
       •   ensuring compliance with the terms of the contract, and
       •   safeguarding the interests of the United States in its contractual
           relationships.

Safeguarding the U.S. interests includes complying with Army Regulation 71-9,
“Materiel Requirements,” April 30, 1997. Army Regulation 71-9 requires the
operational field commanders (the user) to use an operational need statement to
document an urgent need for a materiel solution to correct a deficiency or to
improve a capability that affects mission accomplishment. Further, the
Regulation states that the materiel developer, the combat developer, or the
training developer organizations will not initiate or develop an operational need
statement. The Regulation requires the Army Deputy Chief of Staff G-3/5/7 to
return operational need statement submitted by those organizations without action.


(U) The contracting officer at the Picatinny Center for Contracting and
Commerce, who issued the contract actions, did not safeguard the U.S. interests
when accepting memorandums of urgent requirement from the Program Executive
Officer Soldier and OICW Program Office. The contracting officer issued the
undefinitized contract actions without having operational need statements from
the user to develop and produce the XM8. Specifically, an operational need
statement was submitted to the Army Deputy Chief of Staff G-3/5/7 1 month after
the last memorandum of urgent requirement had been issued. The Army Deputy
Chief of Staff G-3/5/7 did not approve the operational need statement. In
addition, the Joint Requirements Oversight Council had not validated the
capability development document to develop and produce the XM8. By not
safeguarding U.S. interests, the contracting officer wasted $33.3 million of Army
and taxpayer dollars to accelerate the development and production of the XM8.



                                    17
(U) The recommendation was not intended to apply to all undefinitized
contractual actions, just those undefinitized contractual actions that are issued
based on an urgent need. Accordingly, we request that the Deputy Chief of Staff,
U.S. Army TACOM Life Cycle Management Command reconsider his position
on Recommendation B.2. in response to the final report.




                                   18
            C. Designation of Milestone Decision
               Authority for the XM8 (U)
            (U) On June 11, 2003, the then-Program Executive Officer Soldier,
            without evident authority, issued an acquisition decision memorandum.
            That memorandum started the XM8 as an acquisition program and
            authorized entry of the program into the system development and
            demonstration phase of the acquisition process. Further, the Program
            Executive Officer Soldier approved the start of the XM8 Program
            9 months after the OICW Program Office authorized the contractor to start
            work on the XM8. This condition occurred because of confusion over the
            Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
            Technology) procedures concerning the entry and use of milestone
            decision authority information in the Army Acquisition Information
            Management Database for Army acquisition programs that had not been
            started. As a result, the OICW Program Office inappropriately spent
            $33.3 million in research, development, test, and evaluation funds for the
            development of the XM8, which later became the OICW Increment I.

Milestone Decision Authority Policy (U)
     (U) DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003,
     and Army Regulation 70-1, “Army Acquisition Policy,” December 31, 2003,
     provide guidance on the responsibilities and designation of milestone decision
     authorities.

            (U) DoD Directive. DoD Directive 5000.1 states that the milestone
     decision authority is the designated individual with overall responsibility for a
     program, including the authority to approve entry of an acquisition program into
     the next phase of the acquisition process.

            (U) Army Regulation. Army Regulation 70-1 identifies the Assistant
     Secretary of the Army (Acquisition, Logistics, and Technology) as the Army
     Acquisition Executive and as the milestone decision authority for Acquisition
     Category IC and II programs. The regulation states that the Army Acquisition
     Executive may designate the milestone decision authority for Acquisition
     Category II programs to a level no lower than the program executive officer.

Designation of Milestone Decision Authority (U)
     (U) Designation of Milestone Decision Authority for the OICW Program and
     the XM8. On April 4, 2001, the Army Acquisition Executive issued a
     memorandum in which he designated himself as the milestone decision authority
     for the OICW Program. However, on April 19, 2003, the Army Acquisition




                                         19
         Information Management Database5 (the Database), maintained by the Office of
         the Assistant Secretary of the Army (Acquisition, Logistics, and Technology),
         identified the Program Executive Officer Soldier as the milestone decision
         authority for the XM8. An administrative note for the XM8 in the Database stated
         that the Program was added to the Database “per PEO [Program Executive
         Officer] request.” Appendix E further discusses the Army Acquisition
         Information Management Database.

         (U) In September 2005, we asked the Office of the Assistant Secretary of the
         Army (Acquisition, Logistics, and Technology) for documentation to confirm the
         designation of the Program Executive Officer Soldier as the milestone decision
         authority for the XM8. In response to DoD Inspector General Report
         No. D-2006-004, “Acquisition of the Objective Individual Combat Weapon,”
         October 7, 2005, the Office of the Assistant Secretary stated that the Database
         identified Program Executive Officer Soldier as the milestone decision authority
         for the XM8 Program as of June 11, 2003. However, as of July 2006, the Office
         of the Assistant Secretary did not have documentation indicating that the Program
         Executive Officer Soldier was ever designated as the milestone decision authority
         for the XM8. Further, in addition to listing the XM8, the Database listed the
         OICW Program separately and showed the Assistant Secretary as the milestone
         decision authority for that program.

         (U) Change of Research, Development, Test, and Evaluation Funding.
         Although the Program Executive Officer Soldier was not designated the milestone
         decision authority for the XM8, on June 11, 2003, he issued an acquisition
         decision memorandum6 that initiated the start of the XM8 Program, which later
         became OICW Increment I. As a result of that memorandum, the XM8 entered
         into the system development and demonstration phase of the acquisition process.
         When the XM8 entered the system development and demonstration phase, the
         research, development, test, and evaluation funding used for the development of
         the XM8 changed from Budget Activity 4, Advanced Component Development
         and Prototypes, to Budget Activity 5, System Development and Demonstration.
         As shown in Appendix D, the XM8 Program did not comply with requirements
         for research, development, test, and evaluation funding.

         (U) As a result, the OICW Increment I Program was not approved by proper
         authority for program initiation and entry into the system development and
         demonstration phase of the acquisition process. Further, the Program entered that
         acquisition phase before the Joint Requirements Oversight Council, representing
         the warfighter, validated a capability development document justifying a need for
         OICW Increment I.




5
  (U) The Army Acquisition Information Management Database lists Army programs along with their
  respective descriptions, acquisition phases, milestone decision authorities, acquisition categories, and
  other pertinent information.
6
  (U) See Appendix F for the June 11, 2003, acquisition decision memorandum issued by the Program
  Executive Officer Soldier.


                                                      20
(U) Retention of Milestone Decision Authority by the Assistant Secretary of
the Army (Acquisition, Logistics, and Technology) for the OICW Program.
On May 2, 2005, the Program Executive Officer Soldier issued a memorandum to
the Army Acquisition Executive requesting that he designate the milestone
decision authority for the 376 programs, including OICW Program Increments I,
II, and III, on the Program Executive Office Soldier Oversight List. The
Oversight List showed the Program Executive Officer Soldier as the milestone
decision authority for OICW Increments I and II and the Army Acquisition
Executive as the milestone decision authority for OICW Increment III.

(U) On September 16, 2005, in response to the May 2, 2005, Program Executive
Officer Soldier memorandum, the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology), the Army Acquisition Executive, issued a
memorandum stating that, although the OICW Program was shown as
three distinct Acquisition Category II programs on the Program Executive Officer
Soldier Oversight List, the OICW was one program with three increments.
Further, the Assistant Secretary stated that the OICW Program was being
reviewed for possible redesignation as an Acquisition Category I, Major Defense
Acquisition Program. The Assistant Secretary stated that until the acquisition
category issue for the OICW Program was resolved, he would retain milestone
decision authority for the OICW Program. He also designated the OICW as an
Acquisition Category IC program. See Appendix G for the September 16, 2005,
memorandum issued by the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology).

(U) Entering Milestone Decision Authority Information Into the Army
Acquisition Information Management Database. The Database is a
management tool and does not constitute official documentation of milestone
decision authority designation. When the systems administrator for the Database
inputs a program that has not yet entered the system development and
demonstration phase of the acquisition process, and that is expected to be an
Acquisition Category II or III program upon program start, the administrator
designates the program executive officer of the responsible organization for the
program as a point of contact under the data field for milestone decision authority.
This procedure could confuse the users of the Database because the program
executive officer appears to have been designated as the milestone decision
authority. However, only the Army Acquisition Executive has the authority to
designate the milestone decision authority for Acquisition Category II and III
programs.

(U) To preclude misunderstandings about who has milestone decision authority
for a program, the system administrator needs to modify the procedures for
entering milestone decision authority information into the Database. Specifically,
the system administrator should not enter data into the milestone decision
authority data field until the Army Acquisition Executive designates a milestone
decision authority for a program and the system administrator has official
documentation of that designation. Without this internal control, a program could
be initiated by an individual other than the officially designated milestone
decision authority, as occurred with the OICW Program.




                                    21
Effects of Authorizing the Start of an Acquisition Program (U)
     (U) By having an undesignated official act as the milestone decision authority and
     start the XM8 as an acquisition program, the OICW Program Office
     inappropriately spent $33.3 million in research, development, test, and evaluation
     funds for the development of the XM8.

Management Comments on the Finding and Audit Response (U)
     (U) Summaries of management comments on the finding and audit responses are
     in Appendix H.

Recommendation and Management Comments (U)
     (U) C. We recommend that the Assistant Secretary of the Army
     (Acquisition, Logistics, and Technology) modify the procedures for entering
     milestone decision authority information into the Acquisition Information
     Management Database for a program. Specifically, the system administrator
     should not enter data into the milestone decision authority data field until the
     Army Acquisition Executive designates milestone decision authority and the
     system administrator has official documentation of that designation.

     (U) Management Comments. The Deputy for Acquisition and Systems
     Management, responding for the Assistant Secretary of the Army (Acquisition,
     Logistics, and Technology), concurred with the recommendation. For the
     complete text of the Deputy’s comments, see the Management Comments section
     of this report.




                                        22
Appendix A. Scope and Methodology
   (U) To accomplish the audit objectives, we reviewed the following
   documentation and information dated from December 1993 through June 30,
   2006:
         • program documents including the OICW mission need statement,
             December 9, 1993; the OICW operational requirements document,
             February 11, 2000; the OICW Increment I acquisition strategy,
             February 2005; the Army Requirements Oversight Council-approved
             OICW capability development document, October 2004; XM8 System
             Requirements Review, November 13, 2002; XM8 Preliminary Design
             Review, December 4 and 5, 2002; XM8 Critical Design Review,
             July 28 through 29, 2003;
         • contractual documents for the OICW, including contract DAAE30-00-
             C-1065 with Alliant Techsystems Integrated Defense Company,
             contract W15QKN-04-C-1074 with Heckler and Koch, Justification
             and Approval for Other than Full and Open Competition for the
             Heckler and Koch letter contract W15QKN-04-C-1074, December
             2003;
         • R-2A Exhibit, “Army RDT&E [Research, Development, Test, and
             Evaluation] Budget Item Justification,” for 0603802A-Weapons and
             Munitions-Advanced Development, Project AS3, February 2003; and
             R-2A Exhibit, “Army RDT&E [Research, Development, Test, and
             Evaluation] Budget Item Justification,” for 0604802A-Weapons and
             Munitions-Engineering Development, Project 134, February 2004;
         • Project Manager Soldier Weapons memorandum, “Urgent U.S. Army
             Requirement for the XM8 Lightweight Carbine,” September 9, 2002;
             Program Executive Officer Soldier memorandum, “Urgent United
             States Army Requirement for 200 XM8 Lightweight Carbines,”
             March 12, 2003; Program Executive Officer Soldier memorandum,
             “Urgent U.S. Army Requirement for Tooling, Design Improvement
             and XM8 Modular Assault Weapons to Support Fielding of the XM8
             to Two Brigade Combat Teams in the 2nd Quarter of FY05,”
             February 10, 2004; Program Executive Officer Soldier memorandum,
             “Milestone Decision Authority (MDA) Designation for PEO [Program
             Executive Officer] Soldier Programs,” May 2, 2005; and Program
             Executive Officer Soldier memorandum, “Acquisition Decision
             Memorandum for 5.56 mm [millimeter], XM8, Light Weight
             Carbine,” June 11, 2003;
         • Office of the Assistant Secretary of the Army (Acquisition, Logistics,
             and Technology) memorandum, “Delegation of Milestone Decision
             Authority for Selected Acquisition Category II Programs,” April 4,
             2001; and Office of the Assistant Secretary of the Army (Acquisition,
             Logistics, and Technology) memorandum, “Milestone Decision
             Authority (MDA) Designation for Program Executive Officer (PEO)
             Soldier Programs,” September 16, 2005; Major General, Third Infantry



                                     23
           Division (Mechanized) memorandum, “Operational Need Statement
           for an Integrated Modular Assault Weapon System,” March 17, 2004;
       •   management principles and mandatory policies for acquisition
           programs in DoD Directive 5000.1, DoD Instruction 5000.2, and the
           Defense Acquisition Guidebook; and management control provisions
           and key internal controls in Army Regulation 70-1 and Army
           Regulation 71-9;
       •   contracting principles and mandatory policies for acquisition programs
           in the Federal Acquisition Regulation, Defense Federal Acquisition
           Regulation Supplement, and the U.S. Army TACOM Procurement
           Procedure; and
       •   House of Representatives Committee on Armed Services Report
           109-452, “National Defense Authorization Act for FY 2007,” May 5,
           2006.


(U) We also contacted the staffs of the Offices of the Under Secretary of Defense
for Acquisition, Technology, and Logistics; the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology); the Joint Staff; the Army Deputy Chief
of Staff G-3/5/7; the Assistant Secretary of the Army (Financial Management and
Comptroller); the U.S. Army Infantry Center; the Program Executive Officer
Soldier; the Project Manager Soldier Weapons; the Product Manager Individual
Weapons; the Picatinny Center for Contracting and Commerce; the U.S. Army
Armament Research, Development and Engineering Command; and the Defense
Contract Management Agency to determine whether management was effectively
implementing the requirements and systems engineering processes, adequately
applying contracting and funding procedures, and applying procedures for
assigning milestone decision authority responsibilities to an individual. In
addition, we contacted contractor representatives from Alliant Techsystems
Integrated Defense Company and Heckler and Koch to determine the contractor’s
perspective concerning the acquisition of the XM8 weapon system.

(U) We performed this audit from March 2006, through June 2006, in accordance
with generally accepted government auditing standards. This audit project also
included data gathered between October 2005 and February 2006 as part of DoD
Inspector General Report No. D-2006-087, “Acquisition of the Objective
Individual Combat Weapon Increments II and III,” May 15, 2006.

(U) Use of Computer-Processed Data. We did not use computer-processed data
to perform this audit.

(U) Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Weapon Systems Acquisition high-risk area.




                                    24
Prior Coverage
    (U) During the last 5 years, the DoD Inspector General has issued two reports
    addressing the OICW Program. Unrestricted DoD Inspector General Reports can
    be accessed at http://www.dodig.mil/audit/reports.

    DoD Inspector General Report No. D-2006-087, “Acquisition of the Objective
    Individual Combat Weapon Increments II and III,” May 15, 2006

    DoD Inspector General Report No. D-2006-004, “Acquisition of the Objective
    Individual Combat Weapon,” October 7, 2005




                                      25
Appendix B. Glossary (U)
   (U) Acquisition Category. An acquisition category facilitates decentralized
   decision making and execution and compliance with statutory requirements. The
   categories determine the level of review, decision authority, and applicable
   procedures. The following are definitions for Acquisition Categories I and II:

          Acquisition Category I. An acquisition category I program is defined as
   a major Defense acquisition program estimated by the Under Secretary of Defense
   for Acquisition, Technology, and Logistics to require an eventual expenditure of
   research, development, test, and evaluation funds of more than $365 million in
   FY 2000 constant dollars, or of procurement funds of more than $2.19 billion in
   FY 2000 constant dollars, or is designated by the Under Secretary of Defense for
   Acquisition, Technology, and Logistics to be an Acquisition Category I program.
   Acquisition Category I programs have two subcategories: Acquisition
   Category ID and Acquisition Category IC. The Under Secretary of Defense for
   Acquisition, Technology, and Logistics designates programs as Acquisition
   Category ID or IC.

                  Acquisition Category ID. For this category, the Under Secretary
   of Defense for Acquisition, Technology, and Logistics is the milestone decision
   authority. The “D” refers to the Defense Acquisition Board that advises the Under
   Secretary of Defense for Acquisition, Technology, and Logistics at major decision
   points.
                  Acquisition Category IC. For this category, the DoD Component
   Head or, if delegated, the DoD Component Acquisition Executive is the milestone
   decision authority. The “C” refers to Component.

           Acquisition Category II. An Acquisition Category II program is an
   acquisition program that does not meet the criteria for an Acquisition Category I
   program, but does meet the criteria for a major system. A major system is defined
   as a program estimated by the DoD Component Head to require an eventual
   expenditure of research, development, test, and evaluation funds of more than
   $140 million in FY 2000 constant dollars, or of procurement funds of more than
   $660 million in FY 2000 constant dollars, or those designated by the DoD
   Component Head to be an Acquisition Category II program.

   (U) Acquisition Decision Memorandum. An acquisition decision
   memorandum is a memorandum signed by the milestone decision authority. The
   memorandum documents the decisions made as a result of a milestone decision
   review.

   (U) Acquisition Program Baseline. An acquisition program baseline prescribes
   the key performance, cost, and schedule constraints approved by the milestone
   decision authority as criteria for allowing a program to proceed into the next phase
   of the acquisition process.

   (U) Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the resource


                                       26
constraints imposed. It is the framework for planning, directing, contracting for,
and managing a program. It provides a master schedule for research,
development, test, production, fielding, modification, post-production
management, and other activities essential for program success. The acquisition
strategy is the basis for formulating functional plans and strategies.

(U) Affordability Assessment. An affordability assessment demonstrates that a
program’s projected funding and human resources requirements are realistic and
achievable in the context of the DoD Component’s overall long-range
modernization plan.

(U) Analysis of Alternatives. The analysis of alternatives is the evaluation of
the operational effectiveness, operational suitability, and estimated costs of
alternative systems to meet a mission capability. The analysis assesses the
advantages and disadvantages of alternatives being considered to satisfy
capabilities, including the sensitivity of each alternative to possible changes in key
assumptions or variables.

(U) Army Acquisition Executive. The Army Acquisition Executive is
responsible for all acquisition functions within the Army. The Secretary of the
Army delegated this authority to the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology).

(U) Army Requirements Oversight Council. The Army Requirements
Oversight Council advises the Army Chief of Staff on Army warfighting
capabilities, and reviews capabilities documents and makes recommendations.
For requirements documents requiring Joint Requirements Oversight Council
action, the Army Requirements Oversight Council will recommend approval of
the documents and then forward them to the Joint Requirements Oversight
Council.

(U) Budget Activity 3. DoD Regulation 7000.14, “Financial Management
Regulation,” Volume 2B, Chapter 5, June 2004, states that Budget Activity 3,
Advanced Technology Development, in the research, development, test, and
evaluation appropriation, is used to develop subsystems, components, and efforts
to integrate subsystems and components into system prototypes for field
experiments, tests in a simulated environment, or both. Budget Activity 3 is
primarily used to fund development efforts before a program enters the technology
development phase of the acquisition process.

(U) Budget Activity 4. DoD Regulation 7000.14, “Financial Management
Regulation,” Volume 2B, Chapter 5, June 2004, states that Budget Activity 4,
Advanced Component and Prototypes, in the research, development, test, and
evaluation appropriation, is used to fund system-specific efforts that expedite
technology transition from the laboratory to operational use. Budget Activity 4 is
used to fund development efforts before a program enters the system development
and demonstration phase of the acquisition process.

(U) Budget Activity 5. DoD Regulation 7000.14 states that Budget Activity 5,
System Development and Demonstration, in the research, development, test, and
evaluation appropriation, is used to fund programs that have entered the system


                                     27
development and demonstration phase of the acquisition process and are
conducting engineering and manufacturing development tasks to meet validated
requirements before full-rate production.

(U) Capability Development Document. A capability development document
contains the information necessary to develop a proposed program, normally
using an evolutionary acquisition strategy. The capability development document
outlines an affordable increment of militarily useful, logistically supportable, and
technically mature capability. The capability development document should be
approved before the system development and demonstration decision review.

(U) Change Order. A change order is a unilateral order signed by a Government
contracting officer. It directs the contractor to make a change authorized by the
Federal Acquisition Regulation’s “Changes” clause without the contractor’s
consent.

(U) Cost Analysis Requirements Description. A cost analysis requirements
description describes the most significant features of an acquisition program and
its associated system. It describes the technical and programmatic features that
are used to prepare the program office cost estimate, component cost analysis, and
independent life-cycle cost estimates.

(U) Evolutionary Acquisition. An evolutionary acquisition delivers capability
in increments, recognizing up front the need for future capability improvements.
There are two approaches to achieving an evolution acquisition: spiral
development and incremental development.

       •   Spiral Development. A desired capability is identified, but the end-
           state requirements are not known at program initiation. Requirements
           are refined through demonstration, risk management, and continuous
           user feedback. Each increment provides the best possible capability,
           but the requirements for future increments depend on user feedback
           and technology maturation.
       •   Incremental Development. A desired capability is identified and an
           end-state requirement is known. The requirement is met over time by
           developing several increments, each dependent on available mature
           technology.

(U) Full and Open Competition. Full and open competition for a contract
means that all responsible sources are permitted to compete.

(U) Full-Rate Production and Deployment. Full-rate production and
deployment is the second effort of the production and deployment phase of the
acquisition process. This effort follows a successful full-rate production decision
review. In this phase, the system is produced at full-rate and deployed to the field.
This phase overlaps the operations and support phase because fielded systems are
operated and supported while full-rate production is ongoing.

(U) Independent Cost Estimate. An independent cost estimate is a life-cycle
cost estimate for an Acquisition Category I program that is prepared by an office
or other entity not under the supervision, direction, or control of the Military

                                     28
Department, Defense agency, or other DoD Component that is responsible for
developing or acquiring the program. If the DoD Component is the decision
authority, then the independent cost estimate is prepared by an office or other
entity that is not responsible for developing or acquiring the program.

(U) Initial Capabilities Document. An initial capabilities document describes a
need for a materiel approach to a specific capability gap resulting from an initial
analysis of materiel approaches by the operational user and an independent
analysis of materiel alternatives, as required. The initial capabilities document
defines the gap in terms of the functional area, the relevant range of military
operations, desired effects and time. It also summarizes the results of doctrine,
organization, training, materiel, leadership, personnel, and facilities analyses; and
describes why nonmateriel changes are inadequate to provide the desired
capability.

(U) Joint Capabilities Board. The Joint Capabilities Board assists the Joint
Requirements Oversight Council in performing its duties and responsibilities.
The Joint Capabilities Board reviews and, if appropriate, endorses all proposals
for the Joint Capabilities Integration and Development System and the Doctrine,
Organization, Training, Materiel, Leadership, Personnel, and Facilities Analysis
before they are submitted to the Joint Requirements Oversight Council. The Joint
Capabilities Board is chaired by the Joint Staff Director for Force Structure,
Resources, and Assessment.

(U) Joint Capabilities Integration and Development System. The Joint
Capabilities Integration and Development System supports the Chairman, Joint
Chiefs of Staff and the Joint Requirements Oversight Council in identifying,
assessing, and prioritizing joint military capability needs as required by law.

(U) Joint Requirements Oversight Council. The Joint Requirements Oversight
Council validates and approves the Joint Capabilities Integration and
Development System documents for programs of interest to the Joint
Requirements Oversight Council.

(U) Justification and Approval. A justification and approval is a document
required by the Federal Acquisition Regulation to justify and obtain approval for
contract solicitations that use other than full and open competition.

(U) Key Performance Parameters. Key performance parameters are
capabilities considered to be so significant that failure to meet them is cause for a
system or program to be reevaluated, reassessed, or terminated.

(U) Low-Rate Initial Production. Low-rate initial production is the first effort
of the production and deployment phase of the acquisition process. The purpose
of this effort is to establish an initial production base for the system, permit an
orderly ramp-up sufficient to lead to a smooth transition to full-rate production,
and to provide production-representative articles for initial operational test and
evaluation and live-fire testing.

(U) Major Defense Acquisition Program. A major Defense acquisition
program is one that the Under Secretary of Defense for Acquisition, Technology,


                                     29
and Logistics designates as a major Defense acquisition program, or is estimated
to require an eventual total expenditure for research, development, test and
evaluation of more than $365 million in FY 2000 constant dollars or, for
procurement, of more than $2.19 billion in FY 2000 constant dollars.

(U) Manpower Estimate. A manpower estimate is an estimate of the number of
people required to operate, maintain, support, and train for the acquisition when it
is deployed. A manpower estimate is required for all Acquisition Category I
programs.

(U) Materiel Solution. A materiel solution is a Defense acquisition program
(nondevelopmental, modification of existing systems, or new program) that
satisfies or is a primary basis for satisfying identified warfighter capabilities. For
family-of-system approaches, an individual materiel solution may not fully satisfy
a capability gap on its own.

(U) Milestone Decision Authority. The milestone decision authority is the
designated individual who has the overall responsibility for a program and is
accountable for cost, schedule, and performance reporting to higher levels of
management. The milestone decision authority has the authority to approve the
program’s entry into the next phase of the acquisition process.

(U) Mission Need Statement. A mission need statement is a statement of the
operational capabilities needed to meet a specific threat.

(U) Modular Weapon System. A modular weapon system is the generic term
for various devices and accessories on firearm systems. A modular weapon
system adds flexibility and adaptability to many proven designs.

(U) Nondevelopmental Item. A nondevelopmental item is any previously
developed supply item used exclusively for Government purposes and that
requires only minor modifications or modifications available commercially to
meet the requirements.

(U) Operational Need Statement. Operational field commanders use an
operational need statement to document the urgent need for a materiel solution to
correct a deficiency or to improve a capability that affects mission
accomplishment. The operational need statement provides an opportunity to the
field commander, outside of the acquisition and combat development and training
development communities, to initiate the requirements determination process.
The operational need statement is not a materiel requirements document.

(U) Operational Requirements Document. An operational requirements
document lists the operational performance parameters for the proposed concept
or system.

(U) Operational Test and Evaluation. Operational test and evaluation is field
testing, under realistic conditions, of any item or component of weapons,
equipment, or munitions to determine its effectiveness and suitability for use in
combat by typical military users and the evaluation of the results of such tests.



                                     30
(U) Request for Proposal. A request for proposal is a solicitation used in
negotiated acquisitions to communicate Government requirements to prospective
contractors.

(U) Research, Development, Test, and Evaluation Budget. Research,
development, test, and evaluation funds are those appropriated for basic research;
applied research; advanced technology development; system development and
demonstration; research, development, test, and evaluation management support;
and operational systems development.

(U) Statement of Assurance. The statement of assurance indicates whether the
Managers’ Internal Control Program meets the standards, goals, and objectives of
management controls.

(U) Statement of Work. The statement of work is the portion of a contract that
establishes and defines all nonspecification requirements for contractor’s efforts
either directly or with the use of specific cited documents.

(U) System Development and Demonstration. The system development and
demonstration phase is the third phase of the DoD systems acquisition process. It
begins after the milestone decision to enter this phase, and consists of system
integration and system demonstration. It contains a design readiness review at the
conclusion of the system integration effort. DoD Instruction 5000.2, “Operation
of the Defense Acquisition System,” May 12, 2003, states that entry into the
systems development and demonstration phase of the acquisition process occurs at
Milestone B, which is also the point of program initiation for an acquisition
program.

(U) Systems Engineering. Systems engineering is the overarching process that a
program team applies to transition from a stated capability need to an
operationally effective and suitable system. Systems engineering encompasses the
application of systems engineering processes across the acquisition life cycle
(adapted to each phase). It is intended to be the integrating mechanism for
balanced solutions addressing capability needs, design considerations, and
constraints, as well as limitations imposed by technology, budget, and schedule.
The systems engineering processes are applied early in concept definition, and
then continuously throughout the life cycle.

(U) Technical Reviews. Each acquisition phase of a program involves a number
of technical reviews. The purpose of these reviews is to provide the program
manager with an integrated technical assessment of program technical risk and
readiness to proceed to the next technical phase of effort. The following are
three kinds of technical reviews.

       System Requirements Review. The system requirements review is
conducted to ensure that the system under review can proceed into the system
development and demonstration phase of the acquisition process. The review also
makes certain that system and performance requirements derived from the initial
capabilities document or draft capability development document are defined and
remain consistent with the preferred system solution.



                                    31
       Preliminary Design Review. The preliminary design review is conducted
to ensure that the system under review can proceed into detailed design and can
meet stated performance requirements with cost, schedule, risk and other system
constraints. The review is normally conducted during the early part of the system
development and demonstration phase after all major design issues have been
resolved.

        Critical Design Review. The critical design review is conducted to
ensure that system under review can proceed into system fabrication,
demonstration, and test and can also meet stated requirements with cost, schedule,
risk, and other system constraints. The review is normally conducted during the
system development and demonstration phase once the “build-to” baseline has
been achieved.

(U) Technology Development. The technology development phase is the second
phase of the DoD systems acquisition process and starts after a Milestone A
decision. The purpose of this phase is to reduce technology risk and to determine
the appropriate set of technologies to be integrated into the full system. This
phase is usually for advanced development work and does not mean that a new
acquisition program has been initiated.

(U) Technology Development Strategy. A technology development strategy
documents the underlying reason for adopting an evolutionary strategy; a program
strategy, including overall cost, schedule, and performance goals for the total
research and development program; specific cost, schedule, and performance
goals, including exit criteria, for the first technology spiral demonstration; and a
test plan to demonstrate that the goals and exit criteria for the first technology
spiral are met. For either a spiral or an incremental evolutionary acquisition, the
technology development strategy includes a preliminary description of how the
program will be divided into technology spirals and development increments, the
appropriate number of prototype units that may be produced and deployed, how
these units will be supported, and the specific performance goals and exit criteria
that must be met.

(U) Test and Evaluation Master Plan. A test and evaluation master plan
documents the overall structure and objectives of the test and evaluation program.
It provides a framework within which to generate detailed test and evaluation
plans, and it documents the schedule and resources for the test and evaluation
program. The test and evaluation master plan identifies the necessary activities
for developmental test and evaluation, operational test and evaluation, and
live-fire test and evaluation. Further, the test and evaluation master plan links
program schedule, test management strategy and structure, and required resources
with critical operational issues, critical technical parameters, and objectives and
thresholds in the operational requirements document.




                                    32
(U) Undefinitized Contractual Action. An undefinitized contractual action is a
new procurement action entered into by the Government for which contractual
terms, specifications, or prices are not agreed on before the work begins. A letter
contract is an example of an undefinitized contractual action.




                                    33
Appendix C. OICW Timeline of Events (U)
           (U) The following chart illustrates the OICW timeline of events and depicts those
           events in three timelines. The keys for all of the timelines are in the upper right
           corner of the chart.

           (U) The timeline at the top of the page, “Timeline of Actual OICW Events,”
           charts actual OICW events between February 2000 and September 2005. The
           timeline includes the requirements documents, contracting procedures, and
           milestone decision authority events for the OICW, including the XM8 Program,
           which later became OICW Increment I.

           (U) The timelines at the bottom of the page, “Timeline of XM29 Planned Events”
           and “Timeline of XM8 Planned Events,” represent the planned events for the
           XM29 and the XM8 between July 2002 and September 2005. Although the
           timelines do not show September 2005, the OICW Program Office planned to
           equip the first unit with the XM8 by the end of September 2005. In addition, the
           timelines associate the planned events for the XM29 and XM8 with applicable
           phases of the acquisition process: Program Definition and Risk Reduction,*
           System Development and Demonstration, Low-Rate Initial Production, and
           Production (Full-Rate Production and Deployment).




*
    (U) The Program Definition and Risk Reduction phase of the acquisition process was renamed
    Technology Development in May 2003.


                                                    34
                                                                                                                                                                                                                                           KEY FOR TIMELINE OF ACTUAL OICW EVENTS:
                                                                                                                                                                                                                                               XM8 Added to the Alliant Techsystems Contract September 13, 2002
                                                                                                  April 19, 2003                                                                                                                               System Readiness Review November 13, 2002
                                                                                  XM8 is entered into the Acquisition Information                                   February 10, 2004                                                          Preliminary Design Review December 4, 2002
                                                                                 Management Database with the Program Executive                         Memorandum of urgent requirement to field 2                                            Acquisition Decision Memorandum June 11, 2003
                                                                              Officer Soldier shown as the milestone decision authority           brigade combat teams with XM8s by 2nd quarter FY 2005                                        Critical Design Review July 28, 2003
                                                                                                                                                                                                                                               Army Requirements Oversight Council Approved
                                                                                                                                                                                                                                                   Capability Development Document October 2004
     February 11, 2000                                                                                              April 22, 2003                                          February 11, 2004                                                  Draft Test and Evaluation Master Plan October 2004
XM29 Operational Requirements                      September 9, 2002                                                                                                                                                                           Approved Acquisition Strategy March 2, 2005
                                                                                                      Alliant Techsystems contract modification                    Letter from General Council for Colt
    Document is signed                     Memorandum of urgent requirement                          P00025 is definitized for $4.4M2 with work                                                                                                Approved Acquisition Plan March 2, 2005
                                             for the XM8 issued by Project                                                                                             about violation of the Federal
                                                                                                           subcontracted to Heckler & Koch                                                                                                     Draft Analysis of Alternatives May 31, 2005
                                               Manager Soldier Weapons                                                                                                  Acquisition Regulation and
         August 4, 2000                                                                                                                                                 intention to submit proposal                                       KEY FOR PLANNED XM29 AND XM8 EVENTS:
  Alliant Techsystems contract                                                                                           April 23, 2003                                                                                                        Contract Award
  DAAE30-00-C-1065 awarded                                                                                        Alliant Techsystems contract                                                                                                 Milestone C Decision
                                                                                                                modification P00041 for 200-300                                    February 27, 2004                                           Full-Rate Production Decision Review
          April 4, 2001                                           September 13, 2002                            XM8 family of weapons with work                                  Heckler & Koch contract                                       First Unit Equipped
   Army Acquisition Executive                           XM8 light weight carbine development is                 subcontracted to Heckler & Koch                                   W15QKN-04-C-1074
designates himself as the milestone                    added to Alliant Techsystems contract under                                                                              awarded for XM8 redesign                              March 16, 2005
 decision authority for the OICW                              contract modification P00025                                                                                         (250-300 weapons)                      Alliant Techsystems contract modification                      September 16, 2005
                                                                                                                                  September 23, 2003                                                                            P00068 is bridge contract #13                   The Army Acquisition Executive retains
                                                                                                                       Alliant Techsystems contract modification                                                                                                                  milestone decision authority for the
                                                                                                                         P00041 is definitized for $2.1M2 with                                                                                                                       OICW Program Increment I
                                                                                                                        work subcontracted to Heckler & Koch

        Timeline of
       Actual OICW
          Events
                                            July 02          October 02       January 03         April 03             July 03           October 03          January 04            April 04            July 04             October 04         January 05            April 05             July 05
                                                                                                                                                                                                                                                                          May 2, 2005
                                                                                                                                                                                             June 18, 2004
                                                                                                                                                                                                                                                     Program Executive Officer Soldier requests milestone
                                                                                   March 12, 2003                                                   Dec 2003                            Heckler & Koch contract                                     decision authority designation for the OICW Increment I
                                                                           Memorandum of urgent requirement                           Justification and Approval for other            modification P0001 definitizes
                                                                             for 200 XM8s from Program                               than full and open competition citing              Heckler & Koch contract
                                                                                                                                                                                                                                                                              May 11, 2005
                                                                               Executive Officer Soldier                             only one reliable source for proposed           W15QKN-04-C-1074 for $7.4M2
                                                                                                                                                                                                                                                                     Request for proposal for * *
                                                                                                                                            Heckler & Koch contract                                                                                                    *        *       *      *
                                              August 2002                                                                                                                                                              September 27, 2004
                               Project Manager Soldier Weapons sole-source                                                                                               March 2004                             Army Deputy General Counsel opinion
                              XM8 light weight carbine strategy is established1                                                                                                                                      *      *       *      *                                     May 20, 2005
                                                                                                                                                         Tooling Justification and Approval for other
                                                                                                                                                            than full and open competition citing                                                                            Heckler & Koch contract
                                                                                                                                                                 urgent and compelling need                                                                               W15QKN-04-C-1074 is completed
              Timeline of
             XM29 Planned                    July 02          October 02          January 03         April 03          July 03           October 03          January 04            April 04           July 04             October 04         January 05             April 05             July 05
                Events1

                                                                                                                                 Program Definition and Risk Reduction                                                                                                                      System Development
                                                                                                                                                                                                                                                                                             and Demonstration
               Timeline of
              XM8 Planned                    July 02          October 02          January 03         April 03          July 03           October 03          January 04            April 04           July 04             October 04         January 05            April 05             July 05
                 Events1

                                                  XM8                                                                                                                                                            Low-Rate Initial Production                                                       Production
                                                                                  System Development and Demonstration
                                            Program Planning
                                                                                                                                 1                                                                                          3
                                                                                                                                     The timelines for the planned XM29 and XM8 events were established in August 2002.      A bridge contract is an extension of an awarded contract whose period of
                                                                35                                                               2                                                                                          performance has expired. Bridge contract #1 extended the period of performance to
                                                                                                                                   This timeline includes $13.9M in funds spent on XM8 contract work. Additional            March 31, 2006. Bridge contract #2 was effective April 14, 2006, and further extends
                                                                                                                                 incremental funding of $3.5M was provided for the XM8 for a total of $17.4M.               the period of performance to October 14, 2006.
THIS PAGE INTENTIONALLY LEFT BLANK




                37
Appendix D. OICW Increment I Alignment With
            Research, Development, Test, and
            Evaluation Acquisition Phases and
            Funding Requirements (U)
   (U) The following chart illustrates the ways in which the Program Executive
   Office Soldier and the OICW Program Office did not fully comply with DoD
   acquisition and funding requirements for the XM8 Program, which later became
   OICW Increment I.

   (U) The chart is divided into the three research, development, test, and evaluation
   acquisition phases: concept refinement, technology development, and system
   development and demonstration. The chart’s key can be found in the lower
   right-hand corner of the page.

   (U) The OICW Increment I documents and reviews have been placed on the chart
   in chronological order within the acquisition phases. The white shapes placed
   throughout the chart represent when that document or review should have been
   completed according to DoD guidance. The green shapes represent the OICW
   Increment I documents and reviews that were completed during the correct phase
   of the acquisition process. The yellow shapes represent the OICW Increment I
   documents and reviews that were completed during the incorrect phase of the
   acquisition process. The red shapes represent the documents and reviews that
   have not been completed for OICW Increment I.

   (U) The two funding lines on the bottom of the chart represent the funds spent on
   XM8 contract work and the funds spent to support the XM8 Program, which later
   became OICW Increment I, during FY 2002-2005. The purple sections on the
   funding lines represent Budget Activity 4 funds in the research, development, test,
   and evaluation appropriation and the orange sections represent Budget Activity 5
   funds in the research, development, test, and evaluation appropriation spent on the
   XM8 Program, which later became OICW Increment I.




                                       38
                                                                                                                                  1                                                                                2
                                                                                                                  Milestone A                                                                       Milestone B


                                                               Concept Refinement Phase                                                Technology Development Phase                                                    System Development and Demonstration Phase
        Documentation and Reviews
                                                                   (Budget Activity 3 Funds)                                                 (Budget Activity 4 Funds)                                                                      (Budget Activity 5 Funds)
                                                                                                                                                                                                                                                                    Increment I Analysis of Alternatives (draft) -
    Analysis of Alternatives                            Analysis of Alternatives                                                                                                                                                                                                     May 2005

                                                                                                                                                                                                                                                                  Increment I Acquisition Plan -
    Acquisition Plan                                               Acquisition Plan                                                                                                                                                                                   approved in Mar. 2005

    Systems Engineering Plan                                                          Systems Engineering Plan


    Technology Development Strategy                                           Technology Development Strategy
                                                                                                                                                                                                                                        5    Increment I Capability Development Document -
                                                                                                                                                            Capability Development Document                                                  Army Requirements Oversight Council approved
    Capability Development Document                                                                                                                                                                                                                           in Oct. 2004


    Independent Cost Estimate                                                                                                   Independent Cost Estimate



    Manpower Estimate                                                                                                           Manpower Estimate


    Affordability Assessment                                                                                                    Affordability Assessment


    Cost Analysis Requirements Description                                                                                      Cost Analysis Requirements Description


    Acquisition Program Baseline                                                                                                Acquisition Program Baseline                                                                       Increment I Acquisition Program Baseline (draft) – Sept. 2004
                                                                                                                                                                                                                                                                   Increment I Acquisition Strategy -
    Acquisition Strategy                                                                                                        Acquisition Strategy                                                                                                                    approved in Mar. 2005

                                                                                                                                Test & Evaluation Master Plan                                                                                Increment I Test & Evaluation Master Plan (draft)- Oct. 2004
    Test & Evaluation Master Plan

    Programmatic Environmental, Safety & Health                                                                                  Programmatic Environmental, Safety &                                             Increment I Programmatic Environmental, Safety &
                                                                                                                                         Health Evaluation                                                              Health Evaluation (draft) – Dec. 2003
    Evaluation
                                                                                                                                                                         Increment I Acquisition Decision
                                                                                                                                                                   2
    Acquisition Decision Memorandum                                                                                                                                        Memorandum - June 11, 2003
                                                                                                                                           System Requirements
    System Requirements Review                                                                                                              Review – Nov. 2002

                                                                                                                                                  Preliminary
                                                                                                                                                                                                                        Preliminary
    Preliminary Design Review                                                                                                                   Design Review –
                                                                                                                                                                                                                       Design Review
                                                                                                                                                   Dec. 2002

    Critical Design Review                                                                                                                                                                                          Critical Design
                                                                                                                                                                                                                   Review - July 2003

    Support Strategy                                                                                                                                                                                                                                   Increment I Support Strategy (draft) – Dec. 2004

                                                                                                                    FY 02       FY 03                                                                        FY 04                      FY 05
    RDT&E Funds spent on XM8 contract work                  No Budget Activity 3 funds spent on the XM8 program          $0.1M                                         $5.5M                                               $7.5M                                          $4.3M
4
    RDT&E Funds spent to support the XM8 program            No Budget Activity 3 funds spent on the XM8 program         3                                              $0.8M                                               $6.4M                                          $8.7M

     = Phase when document/review should have been completed              = Document/review completed in an                        1   Because the September 13, 2002, contract modification to contract DAAE30-00-C-1065 began the XM8 program with system development and demonstration
                                                                                 inappropriate phase                                     work, OICW Increment I never had a milestone A decision.
     = Document/review completed in the correct phase                     = Document/review not completed                          2   Because Program Executive Officer Soldier initiated the system development and demonstration phase without preparing the minimum documentation and was
                                                                                                                                         not the designated milestone decision authority, the June 11, 2003, acquisition decision memorandum was not in compliance with the DoD 5000 series.
     = Budget Activity 4 funds                                            = Budget Activity 5 funds                                3   No support dollars were spent on the XM8 program in FY02.

                                                39                                                                                 4   Research, Development, Test, and Evaluation

                                                                                                                                   5   As of July 2006, the Joint Requirements Oversight Council has not approved the OICW Increment I Capability Development Document as required by the
                                                                                                                                          Chairman of the Joint Chiefs of Staff Instruction 3170.01E.
Appendix E. Army Acquisition Information
            Management Database (U)
            (U) The Army Acquisition Information Management Database (the Database)
            maintains the official list of programs with their respective description, program
            phase, milestone decision authority, and other information.

            (U) Verification of an Acquisition Effort. When the Army identifies a new
            acquisition effort, it determines whether the responsible organization is in the
            Database. If the responsible organization is in the Database, the Office of the
            Assistant Secretary of the Army (Acquisition, Logistics, and Technology) adds the
            new program to the Database under the correct organization. If the organization is
            not in the Database, the Acquisition Support Center adds the organization and
            links it to the appropriate reporting chain. The Acquisition Support Center is
            responsible for maintaining the Program Executive Officer name and position
            link.

            (U) Entry of a Program Into the Database. The Office of the Assistant
            Secretary of the Army (Acquisition, Logistics, and Technology) enters a program
            into the Database based on the program’s status. When a program is uninitiated,
            or has not been started, it may be entered into the Database as a Pre-Major
            Defense Acquisition Program, a Pre-Major Automated Information System, or a
            Pre-Milestone B* program. Pre-Major Defense Acquisition Programs, Pre-Major
            Automated Information Systems, and Pre-Milestone B programs are expected to
            be in an acquisition category based on fiscal thresholds. For a Pre-Major Defense
            Acquisition Program or a Pre-Major Automated Information System, the
            milestone decision authority would be the Army Acquisition Executive. To
            facilitate tracking for Pre-Milestone B programs, the systems administrator enters
            the applicable Program Executive Officer by title as a point of contact for the
            program. Because the Database does not have a separate data field for a point of
            contact, the systems administrator enters this information in the data field for the
            milestone decision authority. The Database then automatically inserts the name of
            the person who has the applicable Program Executive Officer title. An initiated
            program is added to the Database with documentation that supports the
            acquisition category level, the acquisition program phase, and the designated
            milestone decision authority. When the Army Acquisition Executive officially
            designates or changes the milestone decision authority for a program, the systems
            administrator updates the Database to show the milestone decision authority
            designation.

            (U) Changes to the Database. Program Executive Officers request changes to
            the Database through an automated request system to keep the Database current.
            Major changes, such as a change in the acquisition category level, milestone
            decision authority, and program name, require written documentation by the Army
            Acquisition Executive supporting the change. Minor changes, such as changes to

*
    (U) Milestone B is the milestone decision point for entry of a program into the system development and
    demonstration phase of the acquisition process and is also the point of program initiation for an acquisition
    program.


                                                        41
the program description, do not require supporting documentation. Although the
intent is for all change requests to come through the automated system to record
where the change request originated, the systems administrator also makes a note
in the administrative notes section for the program of how the change originated,
what supporting documents were provided (if required), the date of the change,
and the systems administrator’s initials.

(U) Program Termination. When a program is terminated, the program is not
deleted from the Database immediately. Usually, a terminated program is moved
to the “TERM” category when the program has been cancelled and money
remains for contract closeout. When all of the contracts for a program have been
completed, the program may be completely deleted from the Database.




                                    42
Appendix F. Program Executive Officer Soldier
            Acquisition Decision Memorandum
            for the XM8 Carbine (U)




                      43
44
Appendix G. Assistant Secretary of the Army
            (Acquisition, Logistics, and Technology)
            Memorandum for Milestone Decision
            Authority Designation (U)




                                                       See note at
                                                       the end of
                                                       memorandum.




                          45
(U) Note: Although the Assistant Secretary of the Army (Acquisition, Logistics, and Technology) stated that the
initial capabilities document described the OICW as one program with three increments, the memorandum should have
stated “capability development document” instead of “initial capabilities document,” according to a representative from
the Office of the Assistant Secretary of the Army (Acquisition, Logistics, and Technology).




                                                         46
Appendix H. Management Comments on the
            Overall Report and Findings and
            Audit Response (U)
    (U) Our detailed response to the comments from the Program Executive Officer
    Soldier on the overall report and Findings A and C in a draft of this report follow.
    The Deputy for Acquisition and Systems Management, responding for the
    Assistant Secretary of the Army (Acquisition, Logistics, and Technology),
    included those comments as part of his response to the draft report. The complete
    text of those comments is in the Management Comments section of this report.

Management Comments on the Overall Report and Audit
 Response (U)
    (U) Comments on Reduction of Funds. The Program Executive Officer Soldier
    stated that the draft report implied that the DoD Inspector General audit directly
    influenced the decision by the Office of the Assistant Secretary of the Army
    (Financial Management and Comptroller) to withdraw $10 million in FY 2006
    research, development, test, and evaluation funds from OICW Increment I and to
    put those funds to better use. Further, he stated that the decisions made and
    actions taken by the Office of the Assistant Secretary were normal Army and
    congressional decision making processes and did not occur as a result of the DoD
    Inspector General audit. The Program Executive Officer Soldier reiterated this
    point in his comments.

    (U) Audit Response. The decisions made and actions taken by the Office of the
    Assistant Secretary of the Army (Financial Management and Comptroller) to
    withdraw $10 million in FY 2006 research, development, test, and evaluation
    funds from OICW Increment I and to put those funds to better use did not occur as
    part of the normal Army and congressional decision making processes. That
    action occurred as a result of us proactively requesting the Office of the Assistant
    Secretary to put those funds to better use after the OICW Program Office
    informed us that it did not intend to use the funds.

    (U) Comments on the Procurement of OICW Increment I. The Program
    Executive Officer Soldier questioned the draft report statement in the Executive
    Summary that “The Army designed the OICW Increment I as a one-for-one
    replacement for M16s, M4s, M249s, and select M9s throughout the U.S. Army.”
    He stated that the Army intended to procure OICW Increment I in accordance
    with an approved Army Acquisition Objective based on an approved Basis of
    Issue Plan that supported the Army’s modularity and transformation initiatives.
    He stated that those documents had not been approved for OICW Increment I.

    (U) Audit Response. The capability development document prepared for OICW
    Increment I states that the OICW Increment I is a one-for-one replacement for
    M16s, M4s, M249s, and select M9s.


                                         47
(U) Comments on Approved Warfighter Requirements. The Program
Executive Officer Soldier commented on the draft report statement that “The
OICW Program Office awarded contracts for the XM8 before having an approved
warfighter requirement and it did not obtain appropriate milestone decision
approval before initiating the acquisition.” He stated that contract modification
P00025, September 13, 2002, to the XM29 contract was for examining the
feasibility of spiraling out the kinetic energy portion (XM8) of the XM29
Program. The Program Executive Officer Soldier also stated that a warfighter
requirement is not required to conduct feasibility studies. He stated that all parties
were informed of actions being taken and approved during communications
between the then-Program Executive Officer Soldier and the Army Acquisition
Executive. The Program Executive Officer Soldier stated that, after the feasibility
of spiraling out the kinetic energy portion was confirmed, the then-Program
Executive Officer Soldier signed the acquisition decision memorandum to initiate
the XM8 Program. Further, he stated that the OICW Program Office notified
Headquarters, Department of the Army; the Office of the Secretary of Defense;
and Congress in a timely manner about the efforts, and that Congress encouraged
the OICW Program Office to accelerate those efforts. He concluded, therefore,
the $33.3 million in research, development, test, and evaluation funds for the
development of the XM8 were appropriately spent.

(U) Audit Response. By awarding contracts and contract modifications for the
XM8 before obtaining an approved capability development document for the
XM8 from the Joint Requirements Oversight Council, the OICW Program Office
wasted $33.3 million in research, development, test, and evaluation funds by
attempting to develop a weapon for which it did not have a Joint Requirements
Oversight Council approved requirement. Furthermore, the then-Program
Executive Officer Soldier was not designated the milestone decision authority for
the XM8 when he issued the acquisition decision memorandum. In addition, the
statement of work for contract modification P00025 did not require the contractor
to examine the feasibility of spiraling out the kinetic energy portion (XM8) of the
XM29 Program. Regardless of whether the contract modification required a
feasibility study, the XM8 was in the system development and demonstration
phase of the acquisition process, which does require an approved warfighter
requirement.

(U) Comments on the Systems Engineering Process. The Program Executive
Officer Soldier disagreed with the draft report statement that “development of
Increment I through the systems engineering process was adversely affected
because the OICW Program Office did not have approved warfighter requirements
to evolve into XM8 specifications and contract specifications to create an
operationally effective and suitable system.” He believed that Increment I was
effectively developed through the systems engineering process, that Increment I
met or exceeded current and planned specifications, and that testing would have
proven the system to be operationally effective and suitable. The Program
Executive Officer Soldier reiterated this point later in his comments.

(U) Audit Response. It is possible, but not likely, that the OICW Increment I
could be effectively developed through the systems engineering process, meet or
exceed current and planned specifications, and be operationally effective and
suitable without having XM8 specifications and contract specifications derived


                                     48
from Joint Requirements Oversight Council approved warfighter requirements.
By not having XM8 specifications and contract specifications, the OICW Program
Office agreed to accept what the contractor could produce based on contractor
specifications as opposed to what the warfighter had approved as needed.

(U) Comments on Change in Acquisition Strategy. The Program Executive
Officer Soldier stated that Army senior leadership directed the fielding of the
XM8, beginning in FY 2005 in the memorandum for record, “Soldier Systems
brief to CSA [Chief of Staff of the Army] (IBA, RFI, UA HMMWV, XM-8),”
January 12, 2004.

(U) Audit Response. On September 9, 2002, the Project Manager Soldier
Weapons issued a memorandum of urgent requirement for the development of the
XM8 lightweight carbine about 16 months before Army senior leader directed the
fielding of the XM8. The memorandum of urgent requirement was based on the
ongoing requirement of the Program Executive Office Soldier to lighten the
weight of equipment carried by warfighters.

(U) Comments on Appendix D. The Program Executive Officer Soldier stated
that Appendix D in the draft report incorrectly showed that the Program Executive
Office and the OICW Program Office did not fully comply with DoD acquisition
and funding requirements for the XM8 Program. He stated that Appendix D
assumed that the program was an Acquisition Category I program with
corresponding documentation requirements. As previously provided in response
to DoD Inspector General Report No. D-2006-004, “Acquisition of the Objective
Individual Combat Weapon,” October 7, 2005, the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology) stated that, “The U.S. Army
maintains that the management controls have been followed. Previously our view
was that the OICW I was an Acquisition Category (ACAT) II program. As such,
it was managed as an ACAT II program.” Therefore, the Program Executive
Officer Soldier stated that Appendix D was not a true representation of the OICW
Program’s compliance with the DoD 5000 series of guidance.

(U) Audit Response. Appendix D does not differentiate between an Acquisition
Category I and II program because the documents addressed in the chart are
fundamental to all acquisition programs. Army Regulation 70-1, “Army
Acquisition Policy,” December 31, 2003, requires the Army to apply the guidance
contained in DoD Directive 5000.1 and DoD Instruction 5000.2 to all acquisition
programs while streamlining and tailoring the procedures within statutory and
program requirements. The Regulation requires requests for waivers for
regulatory requirements contained in DoD Instruction 5000.2 affecting all
acquisition programs to be submitted to the Army Acquisition Executive for
approval. A representative from the OICW Program Office stated that tailoring
the documentation for OICW Increment I was discussed with the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology); however, the
representative did not have documentation showing that the Assistant Secretary
waived DoD Instruction 5000.2 requirements identified in Appendix D.

(U) As shown in Appendix D, when the OICW Increment I entered the system
development and demonstration phase of the acquisition process on June 11,



                                    49
2003, the OICW Program Office had not completed and received approval for
basic acquisition documents, such as:

       •   analysis of alternatives,
       •   acquisition plan,
       •   capability development document,
       •   independent cost estimate,
       •   manpower estimate,
       •   affordability assessment,
       •   cost analysis requirements description,
       •   acquisition program baseline,
       •   acquisition strategy, and
       •   test and evaluation master plan.

(U) Around September 2005, when the Army withdrew the OICW Increment I
requirement and shifted funds to other critical small arms needs, the OICW
Program Office had received approval for the acquisition plan and the acquisition
strategy and Army Requirements Oversight Council approval of the capability
development document for OICW Increment I. However, the OICW Program
Office had not received approval for the following documents that were in draft
form:

       •   analysis of alternatives,
       •   acquisition program baseline, and
       •   test and evaluation master plan.

Further, the OICW Program Office had not completed the following documents:

       •   independent cost estimate,
       •   manpower estimate,
       •   affordability assessment, and
       •   cost analysis requirements description.

(U) DoD Instruction 5000.2 requires the statutory and regulatory documentation
to be completed before the system development and demonstration decision so
that the milestone decision authority can make an informed decision on whether to
approve the initiation of a new acquisition program. If program offices do not
provide all of the required documentation before issuing the request for proposal,
the Army cannot be assured that the request for proposal adequately
communicates approved Government requirements to prospective contractors so
that the warfighter receives a quality product that satisfies their needs with
measurable improvements to mission capability and operational support. Those
documents also provide the basis for test and evaluation plans needed to
determine whether the system will be operationally effective, suitable; the key


                                    50
    cost, schedule, and cost constraints; life-cycle cost estimates; technical and
    program features; and the rationale for adopting an evolutionary strategy.

    (U) As discussed in DoD Inspector General Report No. D-2006-004, OICW
    Increment I had the potential to exceed the $2.1 billion procurement threshold and
    should have been designated as an Acquisition Category I program and managed
    accordingly.

Management Comments on Finding A and Audit Response (U)
    (U) Comments on Prime and Subcontractor Negotiating System
    Specifications. The Program Executive Officer Soldier disagreed with the draft
    report statement that “the prime and subcontractor negotiated with the OICW
    Program Office to establish the system specifications for the XM8.” He stated
    that the Systems Engineering Process contains the design relationship between
    functional analysis/allocation and synthesis. He also stated that, as the design
    matured, tradeoffs were necessary to accomplish program goals, which is a
    standard practice. Accordingly, he stated that the draft report’s assertion that the
    prime and subcontractor negotiated to establish the specification for the XM8 was
    incorrect and should be deleted.

    (U) Audit Response. During the December 2002 preliminary design review held
    for the XM8 Program, Heckler and Koch, the subcontractor for Alliant
    Techsystems Integrated Defense Company, the prime contractor, presented its
    proposed design concept for the XM8. This design solution did not focus on
    achieving a high level of commonality with the XM29, and it utilized G36
    technology (the G36 is a Heckler and Koch carbine on which the XM8 was
    based). With no approved user requirement on which to base specifications or
    proposed design solutions, the OICW Program Office accepted Heckler and
    Koch’s design solution for the XM8. After the preliminary design review, the
    OICW Program Office incorporated changes suggested by the subcontractor into
    the XM8 system specification.

    (U) According to the Defense Acquisition Guidebook, logical analysis is the
    process of obtaining sets of logical solutions to help improve the understanding of
    defined requirements and the relationships among those requirements. Functional
    analysis/allocation is one method used by the DoD to attain those sets of logical
    solutions. OICW Increment I did not have a Joint Requirements Oversight
    Council approved capability development document, and therefore, the OICW
    Program Office could not have used functional analysis/allocation to improve
    understanding of defined requirements. Tradeoffs are used to find different ways
    to meet defined program requirements.

    (U) Comments on Continued Work on OICW Increment I. The Program
    Executive Officer Soldier disagreed with the draft report statement that “Even
    after we [DoD Inspector General] issued Report No. D-2006-004, the OICW
    Program Office continued to work on OICW Increment I without having a
    capability development document approved by the Joint Requirements Oversight
    Council. He stated that, in effect, the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology) suspended the OICW Increment I

                                         51
Program when he suspended the request for proposal for Increment I.
Accordingly, he stated that no work was ongoing for the OICW Increment I
Program other than supporting the Joint Requirements Oversight Council process,
replying to this report, and closing out prior test actions.

(U) Audit Response. Although the request for proposal was suspended in July
2005, modification P00068 to contract DAAE30-00-C-1065 did not expire until
March 31, 2006. The modification tasked the prime contractor to deliver two
target-acquisition and fire-control system interfaces and a separate battery mount
for the OICW Increment I and to further develop Increment II. When the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
suspended the request for proposal in July 2005, the Picatinny Center for
Contracting and Commerce should have suspended Increment I work related to
modification P00068. Further, when the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) cancelled the request for proposal in
November 2005, the Picatinny Center for Contracting and Commerce should have
issued a stop work order for those tasks.

(U) Comments on XM8 Work Under Contract Modification P00068. The
Program Executive Officer Soldier commented on these draft report statements:
       On March 16, 2005, the Picatinny Center for Contracting and
       Commerce awarded contract modification P00068 to contract
       DAAE30-00-C-1065. The modification required the prime contractor,
       Alliant Techsystems Integrated Defense Company, to design, build,
       and deliver two target-acquisition and fire-control system interfaces
       and a separate battery mount for the OICW Increment I and to further
       develop Increment II. The expiration date for the modification was
       March 31, 2006.
       The Picatinny Center for Contracting and Commerce should not have
       included work on the XM8 in contract modification P00068 because
       the Assistant Secretary of the Army (Acquisition, Logistics, and
       Technology) directed the Program Executive Officer Soldier and the
       Project Manager Soldier Weapons to conduct a nondevelopmental item
       competition for OICW Increment I in January 2005.

The Program Executive Officer Soldier stated that the work referred to under
contract modification P00068 was for the Future Force Warrior and paid for by
Future Force Warrior, not with XM8 dollars. He stated that the effort was to build
an interface to mount the XM25 target-acquisition and fire-control system on the
XM8 to be used in the Future Force Warrior experiments. However, he stated that
before any dollars were spent on the interface, the Future Force Warrior Program
Office changed its requirement to use the M4 carbine instead of the XM8. He
stated that the interfaces delivered were to mount the target-acquisition and
fire-control system to the M4 carbine.
(U) Audit Response. The OICW Program Office did not provide contract
documentation to support their statement that the work on contract modification
P00068 was for the Future Force Warrior program instead of the XM8 carbine and
that the Future Force Warrior Program Office changed its requirement to use the
M4 carbine instead of the XM8.




                                        52
        If this change did occur, the Picatinny Center for Contracting and Commerce
        should have amended the contract statement of work. Regardless of which
        Program Office funded contract modification P00068, the XM8 work effort
        should not have been funded because:
                 •   the XM8 did not have a Joint Requirements Oversight Council
                     approved user requirement and
                 •   the Assistant Secretary of the Army (Acquisition, Logistics, and
                     Technology) directed Program Executive Officer Soldier and Project
                     Manager Soldier Weapons to conduct a nondevelopmental item
                     competition for OICW Increment I approximately 3 months earlier.

        (U) Comments on Recombining the XM8 with the XM25. The Program
        Executive Officer Soldier commented on the draft report statement that:
                 The XM8 under contract was not required to be capable of
                 recombining with the airbursting XM25 (Increment II) to form the
                 XM29 (OICW Increment III). Also, the prime and subcontractor did
                 not design the XM8 to function with the target-acquisition and fire-
                 control                      system.                        Further,
                 ****************************************************
                 *********************************************************
                 ********************************∗************************
                 **********************.

        He stated that the purpose of the three-increment OICW strategy was to develop
        and mature the technologies separately and then integrate them into the final
        increment. The Program Executive Officer Soldier stated that the technologies
        were matured separately because of the weight constraints on the XM29 and the
        technology available at the time. Further, he stated that the Increment I (XM8)
        was to be a stand-alone kinetic energy weapon and that recombining it with the
        Increment II (XM25) would not occur until Increment III (XM29). The Program
        Executive Officer Soldier also stated that Increments I and II would require design
        modifications to integrate those increments and to achieve the required system
        weight. He stated that requiring Increment I to recouple immediately with
        Increment II defeats the purpose of the incremental strategy and suboptimizes
        each subsystem.
        (U) The Program Executive Officer Soldier also stated that the use of the
        target-acquisition and fire-control system is primarily for the airbursting weapon,
        Increment II. He stated that the target-acquisition and fire-control system is not
        required to operate a kinetic energy system like the XM8 and would only increase
        the kinetic energy system weight and cost. He added that instead of the
        target-acquisition and fire-control system, the XM8 requires less complex and less
        costly sighting accessories. He stated that the target-acquisition and fire-control
        system from Increment II would ultimately be integrated into Increment III.
        (U) Audit Response. According to the Defense Acquisition Guidebook, the
        acquisition strategy for a program should fully describe the initial increment of
        capability, preview similar planning for subsequent increments, and identify the
        approach to either integrate or retrofit, or both, earlier increments with later increments.
∗
Attorney-client privilege data omitted.


                                                 53
            a
            *****************************************************
            ******************************************************************
            ********************************∗*********************************
            **********************.
            (U) The February 2000 operational requirements document for the original
            OICW requires the kinetic energy subsystem to function with the
            target-acquisition and fire-control system.

             ********************************
            ******************************************************************
            **********************************
                                               . Consequently,*******************

            ******************************************************************

            **********************************. Specifically, the OICW Increment I
            ******************************************************************
            **************************************************. *************
            *********. *******************************************************

            (U) Comments on Subcontractor Specifications. The Program Executive
            Officer Soldier commented on the draft report statement that “the XM8 Program
            did not have a Joint Requirements Oversight Council approved capability
            development document. Consequently, the subcontractor, Heckler and Koch,
            used its own specifications to produce the XM8.” He stated that, as part of the
            systems engineering process, the OICW Program Office and the contractor held a
            system requirements review after awarding the feasibility study for the XM8. He
            stated that, as part of that review, the OICW Program Office and the contractor
            reviewed the initial “High Risk/Critical Performance Thresholds,” which the
            Army provided. The “High Risk/Critical Performance Thresholds” formed the
            baseline of the performance specification for the XM8. The Program Executive
            Officer Soldier included a list of those performance thresholds in his comments.
            Accordingly, he concluded that the assertion that Heckler and Koch used its own
            specifications to produce the XM8 was incorrect and should be deleted.

            (U) Audit Response. The OICW Program Office should not consider the “High
            Risk/Critical Performance Thresholds” as the baseline for the XM8 system
            specification. The OICW Program Office should have based the XM8 system
            specification on user requirements approved by the Joint Requirements Oversight
            Council. The OICW Program Office has no assurance that the XM8 as designed,
            which later became OICW Increment I, would meet warfighter requirements.

            (U) Because the OICW Program Office did not have user requirements approved
            by the Joint Requirements Oversight Council on which to base its XM8
            performance specification, the OICW Program Office, at all the technical reviews
            held for the XM8 program, agreed to modify the specifications to accommodate
            the prime and the subcontractor's changes to the system specification used to
            produce the XM8.
∗
    Predecisional and source selection sensitive data omitted.


                                                        54
    t




Management Comments on Finding C and Audit Response (U)
    (U) The Program Executive Officer Soldier comments on Finding C were similar
    to his comments on other sections of the report. Please see Audit Response to
    those comments.




                                      55
Appendix I. Report Distribution (U)

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff
   Director for Force Structure, Resources, and Assessment (J-8)

Department of the Army
Commander, Army Training and Doctrine Command
  Commander, Army Infantry Center
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer Soldier
      Project Manager Soldier Weapons
         Product Manager Individual Weapons
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Army TACOM Life Cycle Management Command
  Executive for Contracting, Picatinny Center for Contracting and Commerce
Commander, Army Test and Evaluation Command
Deputy Chief of Staff G-3/5/7
Deputy Chief of Staff G-8
Deputy Under Secretary of the Army (Operations Research)
Auditor General, Department of the Army
Deputy General Counsel (Acquisition)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force




                                          56
Combatant Command
Commander, U.S. Special Operations Command

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                       57
___________________________________________________________________



Office of the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology)
Comments (U)




                             59
___________________________________________________________________




                             60
___________________________________________________________________



Program Executive Office Soldier Comments (U)
                                                                      Final Report
                                                                       Reference




                                                                      Pages 9
                                                                      through 10




                             61
               ___________________________________________________________________




Final Report
 Reference




                                            62
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                             63
               ___________________________________________________________________




Final Report
 Reference




                                            64
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




*Attorney-client privilege data omitted.



                                           65
               ___________________________________________________________________




Final Report
 Reference




Revised




                                            66
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 19




                                                                      Page 19




                                                                      Page 20




                             67
               ___________________________________________________________________




Final Report
 Reference




Pages 38
through 39




                                            68
___________________________________________________________________



U.S. Army TACOM Life Cycle Management
Command Comments (U)




                             69
___________________________________________________________________




                             70
___________________________________________________________________




                             71
___________________________________________________________________




                             72
___________________________________________________________________




                             73
___________________________________________________________________




                             74
___________________________________________________________________




                             75
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Contract Management prepared this report. Personnel
of the Office of the Inspector General of the Department of Defense who
contributed to the report are listed below.

Richard B. Jolliffe
John E. Meling
Jack D. Snider
Neal J. Gause
Elizabeth A. Powner
Jennifer A. Kura
Maureen M. Keleghan
Jillisa H. Milner
